<html>
<title> - BIG DATA AND AGRICULTURE: INNOVATION IN THE AIR</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


            BIG DATA AND AGRICULTURE: INNOVATION IN THE AIR

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                        GENERAL FARM COMMODITIES
                          AND RISK MANAGEMENT

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 23, 2016

                               __________

                           Serial No. 114-54
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov
                         
                         
                              _____________
                              
                       U.S. GOVERNMENT PUBLISHING OFFICE
20-574 PDF                   WASHINGTON : 2016                       
______________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ef889f80af8c9a9c9b878a839fc18c8082c1">[email&#160;protected]</a>  








                        COMMITTEE ON AGRICULTURE

                  K. MICHAEL CONAWAY, Texas, Chairman

RANDY NEUGEBAUER, Texas,             COLLIN C. PETERSON, Minnesota, 
    Vice Chairman                    Ranking Minority Member
BOB GOODLATTE, Virginia              DAVID SCOTT, Georgia
FRANK D. LUCAS, Oklahoma             JIM COSTA, California
STEVE KING, Iowa                     TIMOTHY J. WALZ, Minnesota
MIKE ROGERS, Alabama                 MARCIA L. FUDGE, Ohio
GLENN THOMPSON, Pennsylvania         JAMES P. McGOVERN, Massachusetts
BOB GIBBS, Ohio                      SUZAN K. DelBENE, Washington
AUSTIN SCOTT, Georgia                FILEMON VELA, Texas
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHELLE LUJAN GRISHAM, New Mexico
SCOTT DesJARLAIS, Tennessee          ANN M. KUSTER, New Hampshire
CHRISTOPHER P. GIBSON, New York      RICHARD M. NOLAN, Minnesota
VICKY HARTZLER, Missouri             CHERI BUSTOS, Illinois
DAN BENISHEK, Michigan               SEAN PATRICK MALONEY, New York
JEFF DENHAM, California              ANN KIRKPATRICK, Arizona
DOUG LaMALFA, California             PETE AGUILAR, California
RODNEY DAVIS, Illinois               STACEY E. PLASKETT, Virgin Islands
TED S. YOHO, Florida                 ALMA S. ADAMS, North Carolina
JACKIE WALORSKI, Indiana             GWEN GRAHAM, Florida
RICK W. ALLEN, Georgia               BRAD ASHFORD, Nebraska
MIKE BOST, Illinois
DAVID ROUZER, North Carolina
RALPH LEE ABRAHAM, Louisiana
JOHN R. MOOLENAAR, Michigan
DAN NEWHOUSE, Washington
TRENT KELLY, Mississippi

                                 ______

                    Scott C. Graves, Staff Director

                Robert L. Larew, Minority Staff Director

                                 ______

      Subcommittee on General Farm Commodities and Risk Management

             ERIC A. ``RICK'' CRAWFORD, Arkansas, Chairman

FRANK D. LUCAS, Oklahoma             TIMOTHY J. WALZ, Minnesota, 
RANDY NEUGEBAUER, Texas              Ranking Minority Member
MIKE ROGERS, Alabama                 CHERI BUSTOS, Illinois
BOB GIBBS, Ohio                      GWEN GRAHAM, Florida
AUSTIN SCOTT, Georgia                BRAD ASHFORD, Nebraska
JEFF DENHAM, California              DAVID SCOTT, Georgia
DOUG LaMALFA, California             JIM COSTA, California
JACKIE WALORSKI, Indiana             SEAN PATRICK MALONEY, New York
RICK W. ALLEN, Georgia               ANN KIRKPATRICK, Arizona
MIKE BOST, Illinois
RALPH LEE ABRAHAM, Louisiana

                                  (ii)
                                  
                                  
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Crawford, Hon. Eric A. ``Rick'', a Representative in Congress 
  from Arkansas, prepared statement..............................     2
    Submitted statement on behalf of Andrew D. Moore, Executive 
      Director, National Agricultural Aviation Association.......    49
Graham, Hon. Gwen, a Representative in Congress from Florida, 
  opening statement..............................................     3
Lucas, Hon. Frank D., a Representative in Congress from Oklahoma, 
  opening statement..............................................     1

                               Witnesses

Faleide, Rodney ``Lanny'', Founder and President, Satshot Inc., 
  Fargo, ND......................................................     4
    Prepared statement...........................................     5
Crago, Tim, Vice President, North West Geomatics Ltd., Calgary, 
  AB, CAN; on behalf of Craig Molander, Senior Vice President, 
  Business Development, Surdex Corporation, Chesterfield, MO.....    13
    Prepared statement of Craig Molander.........................    15
Blair, Robert, Vice President, Agriculture Division, Measure, the 
  Drone as a Service<SUP>'</SUP> Company; Owner/Manager/Operator, 
  Blair Farms, Kendrick, ID......................................    25
    Prepared statement...........................................    27

                           Submitted Material

Dombrowski, Ph.D., Christopher C., Chief Technology Officer, 
  TerrAvion, Inc., San Leandro, CA, submitted statement..........    51

 
            BIG DATA AND AGRICULTURE: INNOVATION IN THE AIR

                              ----------                              


                        THURSDAY, JUNE 23, 2016

                  House of Representatives,
         Subcommittee on General Farm Commodities and Risk 
                                                Management,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 10:01 a.m., in 
Room 1300 of the Longworth House Office Building, Hon. Frank D. 
Lucas presiding.
    Members present: Representatives Lucas, Neugebauer, Rogers, 
Gibbs, Austin Scott of Georgia, LaMalfa, Allen, Bost, Abraham, 
Bustos, and Graham.
    Staff present: Bart Fischer, Callie McAdams, Haley Graves, 
Matt Schertz, Skylar Sowder, Stephanie Addison, John Konya, 
Anne Simmons, Liz Friedlander, Mike Stranz, Nicole Scott, and 
Carly Reedholm.

 OPENING STATEMENT OF HON. FRANK D. LUCAS, A REPRESENTATIVE IN 
                     CONGRESS FROM OKLAHOMA

    Mr. Lucas. Thank you all for being here this morning for 
this hearing exploring big data and agriculture: innovation in 
the air. This is our second hearing in a series to educate 
Members about different facets of the new frontier in 
agriculture.
    Production agriculture from 100 years ago is markedly 
different than it is today. While our farmers still produce 
many of the same crops, a plow once pulled by mules is now 
pulled by a tractor with a satellite guiding it through the 
field. When formerly the only option a farmer had to control 
weeds was tilling the field with major losses to water and wind 
erosion, pinpoint chemical and fertilizer application now 
enable the use of no-till farming technologies.
    While these are just two simple examples, an important 
piece underpinning much of the innovation in agriculture, and 
specifically in precision agriculture, is the development of 
imaging and mapping technology. As we all know, maps of 
farmland and cropland are not new, but the means of capturing 
and utilizing the imagery is constantly changing.
    We will have an opportunity to hear about three 
technologies used to capture images: manned airplanes, 
satellites, and Unmanned Aerial Systems or drones. Each of 
these technologies serve a specific purpose for providing 
information based on imagery for farmers and improving their 
stewardship of natural resources and the sustainability of 
their farming operations.
    While we are only scratching the surface on the innovation 
that satellites and Unmanned Aerial Systems will bring to 
agriculture, manned airplanes also continue to play a vital 
role. Aerial imagery from manned airplanes is the foundation of 
the administration of Farm Service Agency programs, such as ARC 
and PLC, and we will hear more today about how FSA's National 
Agricultural Imagery Program, NAIP, is useful to farmers and to 
a broad spectrum of other users, which in the past has included 
companies such as Google.
    This hearing is timely since the FAA finalized the Small 
Unmanned Aircraft Rule, known as Part 107, which governs 
commercial use of drones, just this week. Commercial drone use 
will now be possible without the need to acquire a special 
exemption, which under the old regulations could take up to 6 
months to be approved. We will be engaging with industry to 
gather their views on the impacts of this new rule on the use 
of drones in agriculture.
    And before I turn to my colleague, I would like to note 
that the hearing on the Committee of Agriculture, Big Data and 
Agriculture: Innovation in the Air, has come to order, and 
before I recognize my ranking colleague in my role as a 
substitute, she too is ably manning this position, I think it 
would be worth noting that our good friend and the Ranking 
Member of this Subcommittee, Mr. Walz, is not at the hearing 
this morning. As many of you know, his brother, Craig, was 
killed in a tragic accident this past weekend, and Craig's son, 
Jacob, was seriously injured. It is an incredibly difficult 
time for the Walz family, and of course, I and you together 
will keep them in our thoughts and prayers over the coming days 
and weeks ahead.
    [The prepared statement of Mr. Crawford follows:]

Prepared Statement of Hon. Eric A. ``Rick'' Crawford, a Representative 
                       in Congress from Arkansas
    Thank you all for being here for this hearing exploring big data 
and agriculture: innovation in the air. This is our second hearing in a 
series to educate Members about the different facets of this new 
frontier in agriculture.
    Production agriculture from 100 years ago is markedly different 
than it is today. While our farmers are still producing many of the 
same crops, a plow once pulled by a team of mules is now pulled by a 
tractor that satellites guide through the field. When formerly the only 
option a farmer had to control weeds was tilling the field with major 
losses to water and wind erosion, pinpoint chemical and fertilizer 
application now enables the use of no-till farming techniques.
    While these are just two simple examples, an important piece 
underpinning much of the innovation in agriculture, and specifically in 
precision agriculture, is the development of imaging and mapping 
technology. As we all know, maps of farmland and crops are not new, but 
the means of capturing and utilizing this imagery is constantly 
changing.
    We will have an opportunity to hear about three technologies used 
to capture images--manned airplanes, satellites, and Unmanned Aerial 
Systems or drones. Each of these technologies can serve a specific 
purpose for providing information based on imagery for farmers and 
improving their stewardship of natural resources and the sustainability 
of their farming operations.
    While we are only scratching the surface on the innovation that 
satellites and Unmanned Aerial Systems will bring to agriculture, 
manned airplanes also continue to play a vital role. Aerial imagery 
from manned airplanes is the foundation of the administration of Farm 
Service Agency programs, such as ARC and PLC. We will hear more today 
about how FSA's National Agricultural Imagery Program, or NAIP, is 
useful to farmers and to a broad spectrum of other users, which in the 
past have included companies such as Google.
    This hearing is also timely since the FAA finalized the Small 
Unmanned Aircraft Rule, known as Part 107, which governs commercial use 
of drones, just this week. Commercial drone use will now be possible 
without the need to acquire a special exemption, which under the old 
regulations could take up to 6 months to be approved. We will be 
engaging with industry to gather their views on the impacts of this new 
rule on the use of drones in agriculture.
    Before I conclude and before we carry on with today's hearing, I 
want to briefly change the subject. You can all see that the Ranking 
Member and my good friend Mr. Walz is not at the hearing this morning. 
As some of you may know, his brother Craig was killed in a tragic 
accident this past weekend and Craig's son Jacob was seriously injured. 
This is an incredibly difficult time for the Walz family, and I'd ask 
that you keep them all in your thoughts and prayers over the days and 
weeks ahead.
    Ms. Graham has graciously agreed to fill in for him today, and I 
now recognize her for her opening statement.

    Mr. Lucas. Ms. Graham has graciously agreed to fill in for 
him today, and at this point I would like to recognize her for 
any opening statement that she would have.

  OPENING STATEMENT OF HON. GWEN GRAHAM, A REPRESENTATIVE IN 
                     CONGRESS FROM FLORIDA

    Ms. Graham. Thank you, Mr. Chairman, and I echo your 
thoughts regarding Mr. Walz, and I ask that we all continue to 
keep him and his family in our prayers.
    It has been a tough time to be a farmer in America today. 
The farm economy is struggling, and farmers are being forced to 
do more with less. As Members of this Subcommittee, our role is 
to protect our existing agriculture infrastructure, while 
exploring new ways to make it work more effectively and 
efficiently.
    Aerial imaging is at the forefront of innovation in 
agriculture. This technology has already proven to be an 
important tool for agriculture agencies, and it has great 
potential to make farming operations more streamlined and 
efficient. I look forward to hearing today how we can safely 
harness this technology to benefit individual farmers and farm 
programs like crop insurance and others.
    Thank you very much for being here today. You all represent 
the different sectors of the aerial data collection industry, 
and your testimony will shed light on applications for this 
technology in the realm of agriculture. I look forward to 
hearing from each of you, and Mr. Chairman, I yield back.
    Mr. Lucas. I thank the Ranking Member for her insightful 
opening statement. The chair would request that other Members 
submit their opening statement for the record so that the 
witnesses may begin their testimony, and to ensure that there 
is ample time for questions.
    I would like to welcome to the table our witnesses. Mr. 
Lanny Faleide, President of Satshot, Incorporated, Fargo, North 
Dakota. Mr. Craig Molander, Senior Vice President, Business 
Development, Surdex Corporation, Chesterville, Missouri, was 
unable to be with us today due to flight complications, and 
every Member of this Committee understands the joys of flights 
in this day and time. In his place, we have Mr. Tim Crago, Vice 
President of North West Geomatics Limited, Calgary, Alberta, 
will be giving his testimony, and also, Mr. Robert Blair, 
Farmer/Vice President, Measure Drones as a Service, Kendrick, 
Idaho.
    And with that, Mr. Faleide, you may begin whenever you are 
ready, sir.

 STATEMENT OF RODNEY ``LANNY'' FALEIDE, FOUNDER AND PRESIDENT, 
                    SATSHOT INC., FARGO, ND

    Mr. Faleide. Thank you, Mr. Chairman, and thank you for 
inviting me to your hearing here today, and the Members of the 
Committee as well. I appreciate the opportunity to discuss a 
little bit about our experience and how imaging technologies 
and big data comes together. I have my written testimony, as 
has been submitted, and I will provide an overview of that. 
There are many details in there that I won't go into.
    Let me give you a little history of why I am in this 
business and how it all happened. I farmed for about 18+ years 
with my father in central North Dakota, starting around 1978. I 
received my pilot's license before that, and I was actually 
taking pictures of my fields with new infrared photography back 
in about 1977. I thought it was pretty cool looking at the 
fields, and I remember one time or many times, actually, my 
father would say to me, ``Gee, Lanny, the fields don't look 
very good. Your new ideas are maybe not proper ones.'' And of 
course, I would say, ``Dad, why are you looking at the fields 
at noon? Why don't you look at them at 8:00 a.m. in the morning 
when you are up and I might still be in bed, or at night at 
8:00 p.m. when the sunlight reflects off the leaves and shines 
the quality of the crop?'' Well, that was always a discussion 
point that we had.
    But I learned from my father's history and how he grew up 
in an open cab tractor how the soils worked, how the fields 
looked, how the vegetation changed. I saw the variability in 
the fields back then as a young farmer. I went through the 
1980s. As many of you know, that farm situation was very 
difficult. Actually, I looked into some satellite stuff in 1987 
when some of the first private satellites went up, European 
satellites and government satellites in the United States. But 
in 1992, we decided to go back to school and change our 
careers, because farming was very difficult. That lasted for 
about a year, and I started a company, and so we went and say 
well, I like to do imaging technologies with satellites. That 
turned into a discussion with American Crystal Sugar Beets, a 
company up in Fargo Morehead, and a colleague of mine now that 
works for me was part of that. I said let's go look at all the 
sugarbeet fields. Let's see if we can monitor nitrogen off of 
these sugarbeet leaves and come up with a more environmental, 
economically sound practice to develop variable rate solutions 
to manage nitrogen. Because they were paying on high quality 
sugar content. So back 20+ years ago, we were already looking 
at that.
    In 1996, we did the first actionable--that is the word, 
actionable variable rate application of nitrogen with a 
satellite image: 1996. That is 20 years ago. The technology was 
put into a tractor with an ag leader monitor, GPS, variable 
rating with a Raven Industries nitrogen controller, a company 
out of Sioux Falls, South Dakota.
    The technology that we are talking about, bringing imaging 
in to help precision agriculture, which started at about the 
same time officially was available then. We have been doing 
this for 20 years. The difficulties to get that technology out 
into a form that allows the farmers to understand it and to see 
it easily with one, two, three button approach, it has been a 
struggle. We were using mobile devices in the early 2000s, 
around the 2000 timeframe, but it wasn't on the phone. Because 
of the iPhone, android phone, mobile devices, the ability to 
stream that into the farmers' hands, right into the tractors, 
is now completely available today.
    The question is, is how do we get that technology to scale 
up? All the interpretation of imagery, whether it is from a 
satellite, an airplane--and we did aerial imaging in 1998 as 
well--and drones now, or UAVs, let's bring the proper 
terminology to that, is now using technologies that have been 
developed by the scientific community and from NASA and others, 
and now we are just embracing that. Now with the mobile 
technologies going and bringing that into the hands of 
everybody just in the last 4 or 5 years has become commonplace, 
and with the stringing of fiberoptics across many parts of the 
rural areas, which I am very happy in North Dakota, where I am 
from, we are maybe about 80, 90 percent fiberoptic-based. And 
that actually helped our company partner with a new Silicon 
Valley company to put two $1 million satellite receiving 
stations in the middle of North Dakota on my prairie farmland.
    What I am trying to get at is the technology is moving 
fast. Education really needs to be done more, but the economics 
of the current farm situation is now starting to open up eyes 
to a number of farmers and ag companies, and that scaling up of 
availability of data to help control costs is becoming a very, 
very possible situation.
    This morning I just had a brand new customer clamoring for 
imagery from us, and I said, ``Look, we just got an image 2 
days ago that covered all of Iowa. Here you go. Let's do 
variable rate nitrogen.''
    So in closing, I will be open to any questions here, more 
details, but the big data situation is taking care of a lot of 
things. Our big data today is tomorrow's small data. The 
industries are adapting to that, but there is a great future in 
precision agriculture and how imaging is going to be used to 
help farmers to economically farm in the future. Thank you.
    [The prepared statement of Mr. Faleide follows:]

Prepared Statement of Rodney ``Lanny'' Faleide, Founder and President, 
                        Satshot Inc., Fargo, ND
  Hon. Eric A. ``Rick'' Crawford,
  Chairman,
  Subcommittee on General Farm Commodities and Risk Management,
  House Committee on Agriculture,
  Washington, D.C.

Subject: Big Data in Agriculture--Innovations in the Air

    I am the founder and President of Satshot. I have been deeply 
engaged in developing remote sensing technologies for agriculture since 
the early 1990's. My accomplishments include creating the first 
variable rate applications map back in 1996, based on imagery and 
assisting in the development of agronomic remote sensing methods. My 
current responsibilities at Satshot include driving strategic vision, 
overseeing operations, and marketing the Company's products to high-
value strategic accounts.
    Satshot began analyzing satellite imagery for agriculture in 1994. 
In 1998, the Company released their first web-based GIS mapping 
software, becoming the first commercial user of MapServer, a NASA 
funded open-source software that serves as a geographic data rendering 
engine. In 2003, Satshot migrated its mapping database to open cloud 
based technology, allowing more user customization and seamless 
integration with more data sources.
    Satshot is focused on producing and marketing satellite data 
products for sale to agribusiness, such as production cooperatives, ag 
suppliers, crop consultants and also crop Insurance companies as well 
as to individual producers. Satshot is currently marketing the Satshot 
system across 400 million acres across North America and expanding 
around the world in countries like Brazil, Argentina, Russia, Ukraine 
and Australia.
    Our Satshot system is also being integrated into Precision Ag 
systems softwares to access satellite imagery directly through their 
processes. Our history, current business and leading capabilities 
position us for exponential growth in Agriculture Sales & Marketing, 
Precision Agriculture, Ag Intelligence, Crop Identification, Crop 
Acreage Estimation, Yield Evaluation and Environmental Monitoring.
    Satshot is one of precision agriculture's longest operating and 
most interconnected data providers, uniquely offering advanced 
analytics through automated processing and distribution of imagery. 
Satshot's cutting edge push notification system enables global delivery 
of updated field-specific imagery the moment it becomes available. 
Satshot is sensor agnostic and has the ability to bundle the entire 
imagery distribution chain, delivering from all sources. Image sensors 
have the same specifications and conform to NASA standards, thus the 
supply of imagery data sold by Satshot is based on the same structures 
of multi-spectral bands. As a result, Satshot's core code can enter any 
imagery server, including drones, and distinctively pull out imagery 
field by field.
    The remote sensing imagery for agriculture has its official 
beginning back in the early 1970s when the first satellite Landsat was 
launched for largely to monitor agriculture. Since then technology has 
rapidly increased with resolution coverage and technical enhancements. 
The concept of using imagery to define field crop conditions is nothing 
new. Even in the previous decade, near infrared photography was used to 
define vegetation bias with photographic film, For example, all SSURGO 
soils maps created were based off of high resolution grayscale images 
taken in the 1950s, 1960s and 1970s
    I got my start taking aerial NIR images of my fields in 1977 of my 
farm in central North Dakota. The advancements in technology has now 
allowed me to look at any field anywhere on the earth right from my 
desk or through a mobile devices in the tractor and use that image to 
define crop production patterns while adjusting them on the fly to 
manage crop inputs more efficiently for more profit gain. You can also 
look at crop damage to assess crop insurance loss across a field and 
define more accurately production and quality of the growing crop.
    These real-time observations and advancements are the core future 
of how agriculture will be managed to gain the best profitability to 
manage our food production system for our food security needs.
    There are many way to provide image crop production data to the 
user. My company Satshot, specializes in satellites because of their 
ability to cover large area of the [E]arth. We also use aerial and UAV 
imagery if desired by the customer. There are many consideration of 
logistics to get the proper data to the farmer cost effectively and 
timely. Each of these platforms whether Satellite, Aerial and UAV have 
their advantages and disadvantages.
    Satellite imagery has a relative advantage over other types of 
other agronomic data layers given its comprehensive geographical 
coverage, lack of privacy issues, and rapidly increasing analytical 
capabilities. The scalability of satellite imaging also makes it the 
most cost effective form of coverage. Ongoing development in the 
private commercial satellite industry provides detailed spatial and 
spectral resolution imagery that allows for increasingly accurate in-
season yield variability measurements, soil and water content 
monitoring, and harvest yield estimates. I believe that at this time 
that accessing any field on the earth anytime is an extremely valuable 
tool, that is why we focus on the satellite source as first option.
Satellite Imagery Market
    New satellite launches will make consistent weekly access to in-
season imagery possible, providing growers real-time crop conditions. 
Scheduled satellite launches will provide daily curated imagery for 
future growing seasons. Advancements in on board remote sensing 
analytic capabilities from satellites coupled with increasing adoption 
rates for precision ag services in general are projected to drive 
considerable demand for imagery based crop health analytical products.
    Recent estimates show the size of the precision agriculture market 
in the U.S. is between $1.5 and $2.0 billion. It is estimated over the 
next 5 years to grow at greater than 13% per annum to reach $3.0 to 
$3.5 billion. Outside the U.S., including developing countries where 
the need to improve productivity is even greater, the growth rate is 
expected to be over 25% per year. Satellite imagery offers the 
compelling benefit of being the fastest growing area of the precision 
agriculture market, while also having the highest ceiling.
    The recent CropLife/Purdue Precision Agriculture Survey project 
that this year that over 46% of the growers are using satellite 
imagery, up from 33.3% in 2013. Next generation imaging promises 
further intensification of demand with improved remote sensing 
technology and increasing downstream market potential.
Satellite Imagery Data Agriculture Uses
    Satellite imagery has important applications to other aspects of 
farm management which also include: year-to-year comparisons on a 
micro-area or macro basis; early detection of crop stress (weeds, 
disease); accurate mapping of damage (hail, floods, etc.) for insurance 
purposes; yield estimation of crop and acreage and others.
    Satellite Imagery allows Agribusiness the visibility to precisely 
target their products and solutions to the right prospect at the right 
time and with the right offer. In addition to serving the Agribusiness 
sector, we provide solutions for the growers. Imagery analysis involves 
quantitative evaluation of satellite images for crop health vegetative 
growth patterns across fields.
    Satellites can deliver broadscale field resolution imagery, 
information and analysis to the farmer/grower to use in their precision 
farming systems. Crops and vegetation appear differently in each 
spectral band, and these differences can vary due to plant vigor, soil 
type, available moisture, and a host of other factors.
    Results of this analysis are used to supply information for 
precision farming operations, in assisting crop production decisions, 
and in making yield and quality estimates on a detailed level. Growers 
can draw in their field and analyze each field by acres, and build maps 
to scout or variable rate their field. Maps can be exported directly to 
variable rate controllers into their tractors or application equipment.
    GIS mapped farm boundaries associated with landowner contact 
information and related vendors for substantially all farmland in the 
United States can also drive field-level distribution. Back-end 
tracking of notification interest and imagery distribution allows the 
user to build multi-layer relationship trees that identify valuable 
interactions within the big geospatial data systems hierarchy user 
ecosystem. As a companies user base grows, these relationship networks 
become increasingly valuable.
    Imagery analytical tools allow the grower to analyze a farm field 
for vegetation variability, which relates to different productivity of 
soils within the field. Tying this information with agronomic knowledge 
and farming techniques, one can efficiently apply chemicals and 
fertilizers where needed for improved productive capabilities. 
Vegetation field variability is determined by analyzing near Infrared 
wavelengths obtained from the satellite sensors.
    By providing soil type, precipitation and the history on farm field 
production down to 5 meter\2\ resolutions or better, the grower can 
efficiently maximize farm production by applying the right quantity and 
type of seed variety, the optimal amount of water and fertilizer, etc. 
To the dealer it provides the farm field level intelligence to 
recommend the optimal seed variety to the farmers or appropriate type 
and quantity of fertilizer.
    Satellite Imagery can be available within as early as 24-48 hrs. 
from the time the satellite takes an image. Once available, web-based 
GIS systems allow the user to quickly submit field information over a 
website, which can be turned into management information for ag 
companies. In return farmer/growers can have access to incentives for 
crop information submitted.
    Although many precision ag platforms still use the free low 
resolution imagery from Landsat, it has significant limitations in 
deciphering the sub-field variance necessary to make accurate agronomic 
decisions. Detailed image accuracy allows for more precise field 
management. Different satellites provide comprehensive offerings of 
high quality imagery data sources with resolutions ranging from 30 
meters to 25 centimeters:
    Insight into crop variability using various graphical indicators, 
known as vegetation indices are created by the coordination of various 
satellite sensor readings for electromagnetic reflectance. During the 
photosynthetic process, the chlorophyll in plants captures 
electromagnetic energy, but does so at varying levels for waves of 
different lengths. Vegetation indices use the variation in specific 
wavelength channel reflections to analyze chlorophyll content and 
extrapolate a field's vegetation biomass.
    These analytics are accomplished by sensor reflectance readings for 
near-infrared, red-edge, red, green, and blue electromagnetic waves. 
Healthy leaves with high chlorophyll levels reflect wavelengths that 
distinctively fall in the near-infrared band, whereas distressed leaves 
absorb waves. High near-infrared reflectance corresponds with crop 
health. Similarly, chlorophyll strongly absorbs red wavelengths and 
reflects green. As such, low red reflectance and high green reflectance 
are both indicators of healthy pants. The different vegetation indices 
utilize different wavelength channel reflectance to provide a variety 
of field information
    Imagery is increasingly viable for determining real-time intra-
field yield variability, an essential component to precision ag 
practices. Near-infrared wavelengths show the most detailed field 
variability analysis of a field.
Precision Agriculture Growth
    Powerful technological trends are developing within precision 
agriculture. These trends include increasing hardware and software 
adoption, cloud connectivity, and growing data standards for platform 
integrations. Rapid growth in the agricultural data science market is 
fostering companies to move quickly to penetrate the market. Many 
companies are developing large user geospatial bases by empowering 
local agronomists and dealers to make informed, graphical decisions for 
their clients.
    Rapid growth in the agricultural data science market is fostering 
unprecedented levels of growth opportunities to penetrate the market. 
Precision Ag Data companies are building large client user bases over 
years by empowering local agronomists and dealers to make informed, 
graphical decisions for their clients.
    Field Management focused on fulfilling orders for curated imagery 
in real-time and providing clear analytics that intentionally do not 
provide direct recommendations, will serve as highly effective tools 
for informing or validating agronomic decisions. Enhanced remote sensed 
imagery from different multi-spectral channels with multi-temporal 
capabilities during the growing season are coveted to quantify, project 
and manage vegetation changes of crops throughout the year.
    The driving force behind the growth of precision farming is that 
patterns of productivity are highly variable within a given farm field, 
and that farm management provided to this micro-level of variation can 
significantly reduce costs, while also increasing yield. However, this 
does require some investment in new equipment. In addition to variable 
rate applicators (fertilizer, chemicals, seed, and Water) and in-field 
navigation equipment (i.e., GPS), a digital data map is provided from a 
geo-referenced vegetation biomass Image dataset that tells the 
computer-controlled applicator how much to apply based on vegetation 
productivity. The data in this digital map can also be based on a 
number of sources, such as soil tests and historical yield (from 
harvester monitors). Patterns detected from satellite imagery can 
significantly enhance, and in some cases supplant, these other sources 
of information.
New Satellite Technology shift
    Next generation satellites improve the frequency of in-season 
shots, allowing real-time monitoring of crop conditions. Leading 
partners developing high frequency satellite imaging will soon 1-3 
years operate powerful micro satellites capable of shooting more 
reliable, inexpensive imagery on a weekly and eventually daily basis. 
The increasing availability of imagery allows the ag industry to fully 
leverage its notification capabilities by providing actionable crop 
condition updates.
    Tremendous disruption is underway for the satellite imaging 
industry, and the most notable breakthrough is the ambition of several 
well-funded entities to supply global satellite coverage with high-
resolution daily imaging through small low-cost satellites that form 
constellations of ``birds'' of Microsats or CubeSats. The CubeSat low-
orbit standard format is revolutionizing how satellites are used by 
providing much of the performance of a conventional satellite for a 
fraction of the cost by using many off-the-shelf micro technologies.
    The low cost of these micro satellites enable increased launches 
and therefore high frequency data. This creates a radical new data set, 
which makes clear a need for advanced processing and distribution 
technologies. The paradigm shift in the satellite imaging industry is 
that a current lack of image availability will quickly swing towards 
overcapacity over the next 10 years.
    The first private companies to build CubeSats already have a 
significant amount of traction and are entering their latter financing 
rounds with strong proof of concept. Critical design is complete and 
the focus has shifted to large-scale manufacturing and deployment. Many 
companies are planning to launch extensive constellations, several of 
which will cost in excess of $1 billion.
    At the same time, traditional satellite cost is also declining and 
many planned launches for relatively smaller and infinitely more 
powerful structures exist as well. Upcoming generations of satellites 
will also use new technologies like short-wave infrared, which is 
capable of seeing through smoke, clouds, fog and other particulates. 
The most recent or identified upcoming Satellite launches (traditional 
and CubeSat) will provide consistent global coverage and a nice scale 
to meet agricultural needs.
    Satellite imagery has a relative advantage over other imaging 
aerial platforms given its comprehensive geographical coverage, lack of 
permission issues, cost effectiveness, and rapidly increasing 
analytical capabilities. A single satellite image can cover millions of 
acres, enabling cost effective coverage.
    New satellite launches will make consistent weekly access to in-
season imagery possible, providing growers real-time crop conditions. 
Scheduled satellite launches, will provide daily curated imagery for 
users. Advancements in remote sensing analytic capabilities from 
satellites coupled with increasing adoption rates for Precision Ag 
services in general, are projected to drive considerable demand for the 
industry. This increased availability of imagery will allow farmers to 
fully leverage image notification capabilities by using actionable crop 
condition updates.
    Most satellite imagery is used as a crop health vegetation analyses 
overlaid on a precisely bound, recent satellite image of a grower's 
field. These images and analyses provide valuable insight for pre- and 
in-season crop conditions. Field image analysis employs a variety of 
data correction techniques on orthorectified satellite imagery and then 
applies a set of index algorithms which interpret channel wavelength 
data.
    Precision Ag software systems display this data as an image, 
enabling growers to easily view several measures of crop variability 
such as biomass diversity. Primary crop health indices include NIR, NIR 
Red Edge, NDVIR, NDVIG, and NDVI Red Edge. These graphical indicators 
enable users to easily build variable rate application maps or identify 
precise in-field zones to scout. Currently, Satellite processed spatial 
resolution of 5 meters provides the ideal mix of analytic capabilities, 
image cost, and geographical coverage.
    Many precision agriculture platforms employing imagery rely on low 
resolution imagery for cost savings, delivery now of \5/10\ meter 
resolution imagery provide a drastic improvement over the industry 
standard Landsat images, which are often only available 2-4 times per 
season. While irregularities can begin to be seen with 30 meter 
imagery, the reduced resolution also makes these images a less 
effective tool for precision applications. Distinct advantages of a 
high resolution quality data layer is essential for the level of 
accuracy for performing agronomic cross-analysis activities including 
definition and adjustment of management zones for variable rate 
applications.
    For super high resolution imagery from 1 MM to 6" resolution, The 
market for unmanned aerial vehicles (UAVs) commonly known as drones 
will be available upon approval by the FAA, which infant drone 
technologies seek to fill the white space left by satellites. UAV's 
have a place along the modern agriculture imaging chain, and the 
marketplace will eventually grow once standardized, processing and 
delivery drone imagery will be little different than that of aerial 
imaging or satellites.
    Despite its limitations regarding logistical processing and 
scalability, the commercial unmanned aircraft systems market is 
projected to experience growth as a result of the integration of UAVs 
into the National Airspace System. UAV data will be more available 
following clarity on legal permission issues, standardization of 
imagery, and decreased bandwidth utilization.
    UAV's do present problems associated with managing the data load 
because of the massive amount of pixel data, and the stumbling 
logistical points of platform execution. UAV's do not currently provide 
scale and coverage, and are akin to fine dining for imaging. Big 
geospatial data systems are being developed to capitalize on this 
opportunity by easily incorporating UAV data into its existing data 
storage and analytical framework, This will require bigger servers and 
more bandwidth, but future core architectures will handle any data load 
to scale across the agriculture sector.
    A strong platform for imaging will ultimately fuse the use of UAV, 
satellite and aerial imaging, and capture the benefits of each source. 
With scalable infrastructure, these big geospatial data systems will 
have the ability to expand data curation, analysis, and delivery 
capabilities to include diverse geospatial data in raster and vector 
formats, from micro-weather sources, and soil sensors, among others.
    Satellites, Airplanes and UAV's will solve the problem of imagery 
access in the near term, and successful systems will deliver these 
images in a useful format to the common grower. However, capabilities 
in a decision support system within the cab will make the biggest 
impact in terms of decision-making on the farm. Distribution of real-
time data streams, coupled with unbiased education regarding how to 
leverage this information is really the Holy Grail of platform 
execution. Simplifying the massive data to meet the daily needs of the 
common grower through decision support modules will change the farming 
paradigm!
Big Data--Cloud Structure--Todays Big Data Is Tomorrows Small Data!
    Cloud systems are becoming logical steps towards building a larger 
platforms for data storage, analysis, and mosaic processing, enabling 
distribution and management of mass amounts of satellite, aerial, and 
UAV data.
    Service providers, resellers and operators concur that the Internet 
is a key enabler in disseminating (EO) Earth observation data and 
services. Web-based platforms are becoming common for storing and 
distributing data sets and products, and will continue to provide 
innovative delivery platforms from which users can obtain data and 
services.
    A pillar of wide-ranging user ecosystems that include leading 
agronomic data providers, growers, cooperatives, crop consultants, crop 
insurance companies, dealers, crop input retailers, equipment 
manufacturers, and independent dashboards will become more available. 
Internet platforms and distribution is expected to be the important 
tool for attracting enterprise and private users in the effort to bring 
EO data to the masses.
    With these systems, Big data is now transforming modern 
agricultural practices by ingesting real-time field information into 
geospatial mapping systems. These systems along with big data allow 
farmers to get more out of their arable land in order to meet rising 
commercial agriculture production needs. There are few big data 
platforms which have proven to be scalable globally, particularly in 
areas of the world where there is limited access to historical yield, 
weather, water, topography and soil data to develop decision algorithms 
and support optimization of various agronomic models.
    In more advanced agricultural markets like the United States, data 
platforms struggle with logistical issues like quality of data 
acquisition and privacy. For reasons like these, the market is becoming 
increasingly reliant on satellite imagery technologies to collect real-
time field crop data to inform GIS models for pixel-level applications.
    A focus on data cloud imagery infrastructure enables image 
providers to develop a range of applications that previously required 
complicated contracts with data providers or the maintenance of a 
separate geospatial database. Robust open platform user ecosystems 
continue to grow through an increasingly diverse group of agribusiness 
related entities, as third party developer momentum proliferates.
    Cloud infrastructures for back-end distribution for digital imagery 
curation and distribution capabilities are needed to highly scale to 
the ag sector. Once an image is delivered, users can measure, or 
project growth characteristics such as early season crop vigor, 
biomass, or yield variations through agronomic modeling. These models 
may determine economic return variability, define effective management 
zones, or inform timing of planting, treating, and harvesting the crop.
    Through the culmination of years of software development, 
leveraging cloud-driven distribution capabilities in a manner that 
provides more timely and frequent field management insights, companies 
like us are providing synergistic benefits and allow users to also 
leverage the clouds data infrastructure for easy storage, management, 
and sharing of their agronomic data. Cloud data systems must permit 
users to import other geospatial data layers such as UAV imagery, 
aerial imagery, and soil sensor data. For imagery, analysis tools must 
be broadly applied.
    Cloud Data delivery and notification infrastructures are also 
extending into third party software through API's (Application 
Programming Interface). Core API structures must be enterprise ready 
and provide retrieval and batch processing of multiple value-added 
images from a single imagery hub. Also platform partners must be able 
to redistribute image products to a growing number of connected 
applications and users.
Push to Grower Technology
    Data notification platforms are massively becoming deployable 
through relatively frictionless distribution. To accelerate scale, 
companies can intentionally omit direct recommendations, in favor of 
offering the most impactful set of applications and data for the use of 
their grower/advisor clients as support for individual judgments. The 
ability to link geospatial data and imagery with precision to areas 
within the individual farm field gives a distinct grower touch and 
results in the ability to deliver unique and highly relevant data. Data 
image hubs can effectively reach the edges of a mass user base at a 
fraction of the overall cost.
    Distributing predominantly high-resolution imagery, directly to the 
cab will help ease the case for precision management and machine 
empowerment through automation. Solutions must be scalable for rapid 
integrations into large agribusinesses. Enterprises must be able to 
quickly set up and link users to fields through extensively attributed 
databases and allow tools for the creation of a hierarchy of users, 
which enables clients to track interactions for active field management 
and big data analytics which will offer unique opportunities to 
immediately acquire a scalable, robust, and vertically focused imaging 
platform for agriculture.
    Platforms that are successful will tactically and strategically use 
cloud core code to enable a broad range of solutions for tracking user 
activity for social or ecosystem benefits while leveraging the cloud 
notification systems backbone to generate real-time, relevant dialogue 
with the grower. This allows scalable big data analysis through a 
network of APIs and advanced database-level algorithms, which users can 
access a system that is limitless in data-depiction and manipulation.
Mobile Apps
    Mobile Image analytics software apps are now mostly cloud-driven, 
and used for in-field decision support solutions. These mobile 
applications offer analytical tools specifically focused on in-field 
analysis which enable users to define management zones for variable 
rate applications as well as track in-field crop condition events.
    Scouting tools within the app also provide tracking capabilities 
for users to record all the harvesting, soil-testing, and scouting 
events that take place throughout the season. Events are linked 
directly to field boundaries, allowing the information to be included 
in any related analysis. Additionally, ``Photos'' tabs give users the 
ability to shoot in-field images of problem areas from their mobile 
devices. These photos are precisely geo-tagged with the geographic 
coordinates of where they were taken.
    These mobile apps not only provide satellite and aerial imagery 
based analytics, but also seamlessly incorporates UAV imagery into the 
apps platform. When users conduct in-field biomass analyses based on 
satellite imagery, they are directed to specific zones of concern 
within the field. This streamlined process allows for targeted high 
resolution UAV imagery to detail leaf-level crop conditions. This 
synergistic use of satellites and UAV's provides the optimal mix of 
data storage and detail for large scale management. Mobile in the field 
platforms show the consultant to the variations in the field. The 
consultant has the option to take a picture of the affected area and 
beam that right to the management team back at the office for immediate 
management techniques.
    Next-Generation Notification Capability: Automatic notification of 
field observations is fundamental to next generation customer 
acquisition and user interaction. Using multiple imaging sources to 
increase frequency and quality, normalizing all images, and introduce 
change detection algorithms in the near term and will be scalable 
globally, likely driving adoption of the notification center and the 
platform in general.
Crop Insurance Claim & Compliance Analysis
    Satellite imagery has also been used extensively for 10 years or 
more for Crop Insurance and field loss claims.
    The USDA/RMA and the crop insurance industry uses satellite imagery 
to evaluate crop damage and assess a more accurate loss analysis of the 
crop loss event. Imagery is taken from satellite archives before the 
damage event and another image is tasked of the area after the event. 
An analysis of vegetation conditions are provided by acreage and 
percentage of vegetative change to the adjustor in the field, resulting 
in a more accurate loss determination. Imagery is also used in fraud 
claims to evaluate losses from previous year to determine accuracy of 
the adjustment.
    For crop loss determination, users can track crop loss claims and 
reports while at the same time analyzing vegetation loss through 
satellite imagery analysis. Features include claim tracking, map 
creation of field location, with GPS coordinates plus acreage of 
analysis using a satellite image taken 10 days of the loss. Map report 
generation of the vegetation zone characteristics by acre and 
percentage. Loss maps are printed and emailed to the loss adjuster in 
the field.
    Imagery is also used for creation of Crop Insurance map booklets 
tied to historical insurance yield information. For crop loss 
determination, imagery is used to evaluate crop damage and assess a 
more accurate loss analysis of the crop loss event.
AG Intelligence
    Agricultural uses of satellite imagery to date, have historically 
focused on broad macro-based evaluations, such as regional, national, 
and international estimates of acreage and yield. However, 
agribusiness's demand for satellite data is shifting to a more micro-
based (local area, individual farm, and in-field) focus. The primary 
driver in this shift is the increasing adoption of precision farming 
techniques for increased crop input and yield maximization efficiency.
    Individual field vegetation analysis of satellite data provides 
users access to enhanced tools to process and analyze satellite imagery 
of comparable fields or groups of fields. Imagery analysis involves 
quantitative evaluation of satellite images for patterns and trends. 
Crops and vegetation, can be compared by farm to farm or county by 
county by a host of agronomic vegetative factors.
    Software platforms will continue to be developed further to provide 
more advanced crop monitoring tools automatically for the Agribusiness 
community and provide detailed reports of crop acreage conditions. This 
allows grain buyers/traders to quantitatively assess the impact of 
drought conditions. Similarly, users can use tools and datasets to 
evaluate crop growing conditions.
    The need for future food security for evaluating crop levels will 
allow stability of the food supply for Worlds needs. In the past few 
years, volatility in crop prices has been caused by a lack of real-time 
information on crop conditions and their levels of productivity. For 
example, in the 2010 season the agriculture grain trading industry was 
affected by the inadequate crop information sources of the Russian 
wheat crop, resulting in a 50% increase of prices within weeks.
    Also these past years, inaccurate USDA crops report have resulted 
in an increase in crop prices that has affected the stability of 
commodity stocks , like corn and soybeans. The ability to track crop 
information down to the field level and its infield variability tied to 
grower operator information will result in new tools to allow the food 
security situation to be addressed.
    The ability to have real-time information of crops is invaluable 
for the proper pricing of commodities. Satellite imagery provides real-
time crop information across the country and the world throughout.
Crop Identification, Crop Acreage Estimation and Yield Evaluation
    Many new satellites have just been available in the past years. 
These new satellites have changed the logistics in accessing real-time 
growing information like never seen before. New satellites system can 
access ten times more information real-time than current and previous 
satellites. World coverage of satellite images and data linked with 
field boundary data allows multiple satellite sources in varying 
resolution and footprints to remotely:

  <bullet> Identify crops, current vegetation and crop density.

  <bullet> Evaluate and track crop growth trends against other regions, 
        other years.

  <bullet> Assist crop insurers to estimate risk based on vegetation 
        patterns and confirm loss claims.

  <bullet> Assist Farm lenders to evaluate current and potential crop 
        income.

  <bullet> Provide grain buyers visibility to available grain 
        production acres.

  <bullet> Early detection of crop stress (weeds, disease).

  <bullet> Accurate mapping of damage (hail, floods, etc.) for 
        insurance purposes.

  <bullet> Estimated current vegetation using biomass information which 
        has been calibrated with verifiable crop data.

  <bullet> Precipitation and weather data.

  <bullet> Previous crop rotation (i.e., is their current vegetative 
        state the product of a good crop year or crop rotation).

  <bullet> 3D topographic elevation of each farm field.

  <bullet> Biomass Index that allows to estimate current level of 
        vegetation in regular (e.g., every 3-4 days) intervals.

  <bullet> Weather reports tied to Grower degree days and crop stages 
        relating to Vegetation Image maps.

    Other developments in the market include environmental monitoring, 
for carbon management and food security. Technologies allow regulators 
or the market to accurately define the level of total biomass carbon 
sequestration on agricultural land and its acreage. Identifying and 
monitoring actual carbon sources and carbon sinks within a given region 
or farm, with comparisons of net carbon dioxide emission sources 
amongst individual crop fields, can improve annual reporting of carbon 
sequestration levels per agricultural grower.
Hyperspectral Imaging
    Applied research for high spectral resolution imagery in 
agriculture is increasing due to availability of new image sensors. 
This technology is expected to gain high levels of adoption in the 
future once new spectral libraries are created, improving efficiency 
and market awareness of detailed crop conditions.
    The benefits of hyperspectral imagery lie in its ability to 
attribute a complete wavelength spectrum to each individual pixel. This 
creates hundreds more spectral bands than multi-spectral imagery, 
enabling precise measurements that support a variety of agronomic 
activities. This includes added accuracy for yield predictions, 
vegetative stress detection, seed stock differentiation, and crop 
tillage methodology assessments. Advancements in hyper spectral remote 
sensing and applied research will provide users added precision for 
better yield projections, vegetative stress detection, and crop quality 
differentiation.
Future Agricultural Imaging Trends
    Curated imagery provides a powerful data layer along with robust 
suites of analytical tools to support long-term agronomic decision 
making processes. High volume satellite image distribution platforms 
have ben available for agriculture for a number of years, and as the 
commercial space industry releases next generation satellites capable 
of more frequent in-season monitoring, scalable, high utility 
components for agronomic platforms must be available for the 
agricultural information market
    Big data will be an ever increasing concern because of the massive 
amounts of information we gather for defining our fields needs for more 
efficient production. The tech industry has the infrastructure to 
handle this growth. The main issues are data privacy and security 
concerns which need to be addressed, and the proper rules applied for 
secure access to agricultural data. These issues can be resolved by 
looking at other industries data policies, and to allow open data 
standards to continue to develop. Transparency of data will be key to 
the growth of the agriculture information industry to allow new 
technology to proliferate and create a robust food industry for our 
future growth as a society.
            Sincerely,

Rodney ``Lanny'' Faleide,
President,
Satshot Inc.

    Mr. Lucas. Thank you, Mr. Faleide.
    Mr. Crago, you are recognized for 5 minutes. Pushing that 
button is always important, yes.

 STATEMENT OF TIM CRAGO, VICE PRESIDENT, NORTH WEST GEOMATICS 
  LTD., CALGARY, AB, CAN; ON BEHALF OF CRAIG MOLANDER, SENIOR 
                    VICE PRESIDENT, BUSINESS
       DEVELOPMENT, SURDEX CORPORATION, CHESTERFIELD, MO

    Mr. Crago. It is only one button. You think I could figure 
that out.
    Mr. Chairman and other Members of the Subcommittee, thank 
you very much for the opportunity. I appreciate it very much. 
What I would like to provide is a bit of a discussion on the 
innovation in the air, and specifically as it relates to the 
NAIP Program, which is the National Agricultural Imagery 
Program. This is a longstanding aerial imagery program that was 
initiated and is currently maintained by the Aerial Photography 
Field Office out of FSA in Salt Lake City. The program has been 
running since 2002, and from its beginning and what it is today 
is a program that collects high resolution aerial imagery of 
the entire lower 48 states, currently, on a 2 year refresh 
cycle. There are three prime contractors that are awarded 5 
year contracts with annual task orders issued, and these 
companies work in collaboration with the APFO in Salt Lake City 
and with each other in ensuring that the entire lower 48 states 
are covered on a 2 year cycle.
    The program is interesting in the way that it came about, 
and as it has evolved over the years. What I would like to do 
is find my presentation and put some examples of the imagery up 
for you to view. There we go. Thank you.
    So this program is undertaken with aircraft, and as it has 
evolved over the years, it has taken advantage of technological 
advances in the sensor technology. What you see on the screen 
here are two images taken last year in Wyoming, one standard 
color RGB, the one on the right is color infrared. These two 
renditions are part of the visible spectrum that are acquired 
simultaneously by a single sensor. Another example of it from 
Craighead County in Arkansas, again taken in 2015.
    This evolution of the technology that has occurred has 
really been a result of driving from the USDA from FSA, and 
manufacturers of these sensors in trying to accommodate the 
requirements of the USDA and undertaking its role in providing 
this type of data to the USDA and to the farmers themselves.
    Here is another example of the ability to take this imagery 
and provide a 3D version of it, simply from a single flight.
    One of the innovations that has occurred, and you can 
appreciate that this data is acquired, the value of the data is 
getting the data into the hands of those folks within FSA that 
have requirements with respect to management of various 
programs, including RMA programs and other programs within the 
USDA.
    The urgency of getting this data and the currency of this 
data is of utmost importance. One of the innovations that has 
been driven by FSA has been the requirement now to provide this 
data within 5 days of a flight, so you can appreciate that at 
the beginning of the program, delivery times were something in 
the order of months, and today we are delivering the imagery to 
Salt Lake City within 5 days of acquisition. It is made 
available through a web service, and it is available to all 
participants within the FSA and their requirements for 
compliance and monitoring.
    To give you an idea of what we are talking about here, to 
cover \1/2\ of the lower 48 in a single acquisition season--and 
remember, an acquisition season is during peak crop growing 
times--the three contractors that undertake this work have, at 
any one time, up to 25 aircraft with sensors in the aircraft. 
Some of the parameters for the acquisition are 35,000 
altitude, speeds of up to 200 knots.
    In summary, what I want to communicate to you is some of 
the improvements that have occurred and the importance of this 
program in the sense that the original program was partial 
state coverage. This is now full state coverage. It is \1/2\ of 
the 48 states. Resolution has gone from a 2 meter acquisition 
now to some states being done at a \1/2\ meter resolution. 
Originally the program was all film. It is now all digital. It 
is all multiband. Accuracy is an extremely important part of 
this when you consider the comparison and use of CLUs and other 
land units in relationship to the imagery. Delivery, as I said, 
has gone from several months down to 5 days. And finally, what 
we have is a program now that is being undertaken for 
approximately \1/2\ of the cost that it was being undertaken 
with as recently as 5 years ago.
    This funding issue is probably one of the most significant 
ones in the sense that the program is not authorized 
specifically for the NAIP program, and you can see in this 
chart the fluctuations in the funding. The desire of the USDA 
and FSA and the APFO in Salt Lake City is complete 48 state 
coverage within 1 year. That would require an authorization of 
approximately $30 million per year. The last couple of years, 
we have been able to secure funding for about \1/2\, and this 
is a consideration we would like to put to the Subcommittee is 
consideration of an authorization for full 48 state acquisition 
annually at an annual cost of $30 million per year.
    And with that, I will thank you for your time, and I would 
welcome any questions later. Thank you.
    [The prepared statement of Mr. Molander follows:]

 Prepared Statement of Craig Molander, Senior Vice President, Business 
           Development, Surdex Corporation, Chesterfield, MO
    Mr. Chairman and Members of the Subcommittee:

    Thank you for the opportunity to testify at this morning's hearing 
on ``Big Data and Agriculture: Innovation in the Air.'' I am Craig 
Molander, Senior Vice President of Surdex Corporation, one of the three 
prime contractors working with the USDA's Farm Service Agency (FSA) to 
implement the National Agricultural Imagery Program or NAIP. With me is 
Tim Crago, Vice President of North West Geomatics Ltd., representing 
another of the three NAIP contractors. Surdex and North West have each 
been involved with NAIP for 15 years.
    Agriculture, because of its tie to the land, has been a leader in 
mapping since the 1930s when USDA first began collecting aerial 
photography of farmland on a small scale basis, then consolidated its 
efforts with the Aerial Photography Field Office in Salt Lake City 
(APFO) in 1977. NAIP was initiated in 2002 to coordinate the collection 
of imagery in support of the administration of FSA farm programs. 
Today, NAIP imagery covers the entire lower 48 states and has achieved 
a 2 year refresh cycle. It is safe to say that this is the largest 
continuous imagery mapping program in U.S. history.
    So useful has NAIP imagery become that a 2014 National Earth 
Portfolio Assessment by the White House Office of Science and 
Technology Policy ranked NAIP as the fifth most important of 149 
existing [E]arth observation systems in terms of assisting Federal 
agencies and providing societal benefits. Much of the imagery in 
consumer products, from automobile GPS systems to web services 
companies, that consumers assume originate with satellites, actually 
come from NAIP and other aerial sources.
    Imagery from satellites and drones also play vital roles, and we 
appreciate that this hearing has been structured to explore the 
importance of each of these technologies in a complementary fashion. 
NAIP, however, has demonstrated that aerial imagery acquisition is 
uniquely capable of providing widespread coverage that meets the 
demanding seasonal windows aligned with peak crop growing seasons and 
weather and cloud constraints.
    Within USDA, NAIP imagery is a key geospatial data layer for FSA, 
the Risk Management Agency (RMA), the Natural Resources Conservation 
Service (NRCS), the U.S. Forest Service (USFS), and the Animal and 
Plant Health Inspection Service (APHIS), which use it for a variety of 
farmer services and program compliance functions. But NAIP imagery is 
used far beyond USDA itself. It is made available both government-wide 
and to the public for digital download, purchase at nominal cost--
literally the cost of a thumb drive--or web imagery services hosted by 
the APFO. Within the Federal Government, other users include the 
Department of [the] Interior and its U.S. Geological Survey (USGS), the 
U.S. Army Corps of Engineers, Homeland Security, the Census Bureau, and 
the National Geospatial-Intelligence Agency. State and local 
governments use NAIP imagery to support functions from law enforcement 
to fire and emergency services to crisis management to transportation 
to urban planning to natural resources management and monitoring. In 
the private sector, NAIP imagery has become an essential tool for 
companies involved in mining and energy, urban planning, engineering, 
and environmental analysis. Attachment A shows the range of entities 
using NAIP imagery from the USDA NRCS portal.
    Finally, individual farmers and their supporting services use NAIP 
for a host of farm management functions. They are a foundation for 
FSA's Common Land Units, crucial to acreage reporting for crop 
insurance and farm programs, and are integrated into precision farming, 
agronomic analysis, and irrigation systems. Attachment B is a list of 
typical NAIP farmer uses. In order to assure consistency and avoid 
duplication, the NAIP program, and particularly its technical 
specifications, are coordinated though the government-wide Federal 
Geographic Data Committee created in 1990 by OMB Circular A-16 and co-
chaired by the Secretary of [the] Interior and the Deputy Director of 
OMB, as well as its National Digital Orthoimagery Program (NDOP) 
subcommittee.
    The collection and processing of NAIP imagery each year is a 
substantial undertaking that has required continual investment by 
contractors in equipment, software, and process refinement. Imagery is 
acquired under ``leaf-on'' conditions during the growing season in 
order to reflect crop status. This is in marked contrast to nearly all 
other Federal, state, and local government ``leaf-off'' projects at 
higher resolution for traditional mapping. The aircraft used in NAIP, 
approximately twenty-five of them in 2015, represent an investment of 
$2.5 to $3.5 million each. These aircraft operate at up to 35,000 
using multi-spectral sensors yielding color and color-infrared imagery. 
Standard NAIP products include Compressed County Mosaics (CCMs) and 
Digital Orthophoto Quarter-Quadrangle (DOQQ) imagery. In recent years, 
the contractors have implemented Early Access Web Services (EAWS) to 
provide initial imagery within 5 days of acquisition, allowing USDA and 
its Federal partners to begin analysis earlier and meet demanding 
reporting timelines.
    NAIP imagery fits seamlessly into modern Geospatial Information 
Systems as a ``base layer'' that is combined with other layers such as 
farm program data, information on structures and underground pipelines, 
political boundaries, financial and [C]ensus information, land 
agronomics, elevation data, soil qualities, addresses, so on. Often, 
these systems also incorporate imagery from drones and satellites to 
address special needs, creating powerful systems for business, 
government, and science.
    Over the years, we have witnessed numerous improvements in NAIP:

  <bullet> Cost: The program cost has fallen sharply from an estimated 
        $55 million per year to cover the entire lower forty-eight 
        states a few years ago to now just below $30 million, a result 
        both of improved technology and excellent program management by 
        FSA's APFO. APFO has reduced the program to three prime 
        contractors (down from as many as ten early in the program) to 
        streamline management and coordination.

  <bullet> Quality: NAIP imagery is now entirely captured with digital 
        sensors rather than film cameras, and has improved in clarity 
        to as fine as \1/2\ meter resolution, thus meeting established 
        map accuracy standards at the highest level. The multi-spectral 
        data can be exploited using automated classification for 
        investigation of plant health, spread of infestations such as 
        bark beetles and the like. The success of the program has 
        resulted in its standards and guidelines being adopted by many 
        other Federal, state, and local projects.

  <bullet> Speed and currency: Initial imagery is now available within 
        5 days of acquisition and final products within 30 days. With 
        resolution of the funding issue discussed below, it is possible 
        to provide coverage of the entire lower 48 states on an annual 
        basis, which would provide substantial benefits to program 
        users. User surveys conducted by the USDA and organizations 
        such as the National States Geographic Information Council 
        (NSGIC) highlight the need for annual coverage. Surveys by the 
        USDA have shown a consistently very high level of satisfaction 
        among NAIP users.

    The result of these improvements has been an extremely high return 
on taxpayer dollars, a high value for funding partners, and more 
widespread use both by public- and private-sectors.
    The single greatest concern regarding NAIP is its funding structure 
that has resulted in instability. Since NAIP originally was created as 
an internal oversight/service initiative within the FSA, it has been 
funded primarily out of FSA's own ``salaries and expenses'' 
appropriation--despite the program's wide use both by government and 
the public--and without a separate statutory authorization from 
Congress. FSA's support for NAIP has been strong and unwavering, a 
principal reason that NAIP has survived several years of budget 
constraints. FSA annually provides about \2/3\ of the annual cost of 
NAIP, with its partners, notably USGS, NRCS, and USFS, funding the 
remaining portion along with occasional investments by state partners. 
As mentioned earlier, public users of NAIP and noncontributing 
government agencies obtain imagery essentially for free.
    This situation has placed FSA in a difficult position with regard 
to NAIP, and the result has been unpredictable program funding. 
(Attachment C contains a chart showing the annual NAIP funding from 
2003 through 2016.) In years when FSA faces severe internal funding 
needs--be it staff training, implementation of farm bills or other 
major legislation, computer upgrades or maintaining field offices--
these create direct competition for funding NAIP. In some years, FSA 
has been forced to turn to the Commodity Credit Corporation to fill the 
gap. In other years, contracts were finalized too late for much of the 
growing season.
    For this reason, we have long advocated that Congress adopt a 
statutory line-item authorization and appropriations for NAIP as a 
basis for long-term funding stability. We hope you will consider this 
idea in upcoming legislation.
    From our collective experience in contracting with Federal, state, 
and local government, we at Surdex and North West Geomatics have found 
NAIP an exemplary illustration of a true government-private partnership 
that has improved products and services and exploited technology to 
lower costs, resulting in expanded coverage. Our annual contractor 
meetings with APFO at the end of each year to review lessons learned 
and explore improvements features open discussions benefitting both 
sides and, most importantly, improve the quality, accuracy, and 
timeliness of our imagery for the end-users.
    Thank you again for the opportunity to appear at today's hearing. 
We would be glad to answer any questions you might have.
                              Attachment A
Data Distribution by the USDA

 
 
 
  Downloads of CCMs from the USDA             Downloads by Usage
         Geospatial Gateway
 

                                     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

 
 
 
      Note: APFO CSS more than             >30% are from some level of
   offset the drop-off in 2012-         government.
   2013.
 
Graphics courtesy of Farm Service Agency.

                              Attachment B
How Farmers Benefit from NAIP Imagery
    Managing their Farms:

  <bullet> Keep current, effective farm records.

  <bullet> Oversee operations and plan new projects.

  <bullet> Find best locations for grain bin and other farm structure 
        locations for loans.

  <bullet> Identify urban encroachment, sites for new buildings, gas 
        and oil well development.

  <bullet> Review topography changes around waterways after flooding or 
        other extreme weather.

  <bullet> Identify and plan irrigation changes.

  <bullet> Assist with crop reporting.

  <bullet> Support program appeals.

  <bullet> See surrounding lands and fields for comparison and 
        planning.

    Receiving benefits from USDA agencies:

  <bullet> Respond to inquiries on USDA programs.

  <bullet> Self-check for program compliance.

  <bullet> Verify crop history and planting patterns.

  <bullet> Apply for and receiving disaster response/assessments.

  <bullet> Manage food plots on CRP fields and CRP-managed haying and 
        grazing acreage.

  <bullet> Assess, monitor, and address crop and animal disease 
        outbreaks with APHIS.

  <bullet> Assist U.S. Forest Service in managing forest lands.

  <bullet> Work with NRCS on resource assessments & inventory 
        management.

  <bullet> Benefit from NASS, ERS, and University statistics and ag. 
        Research in USDA program; management and development.

    Receiving services from private vendors:

  <bullet> Agricultural industry:

    <ctr-circle> Precision farming systems.

    <ctr-circle> Agronomic services.

    <ctr-circle> Private insurance offerings.

    <ctr-circle> Irrigation consultants and monitors.

  <bullet> Tool for obtaining carbon offsets where available.

  <bullet> Basis for Google Earth, Microsoft Maps, and OPS navigation 
        systems used by farmers.

  <bullet> Forestry management companies:

    <ctr-circle> Inventory and financial planning.

    <ctr-circle> Fire tracking and mitigation.

    <ctr-circle> Riparian analysis.

    <ctr-circle> Fire inventory.
                              Attachment C
Funding Challenge
CCC Funding Replaced FSA S&E Funding for 2011-2014
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
 
                        PowerPoint Presentation
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Lucas. Thank you, Mr. Crago.
    Mr. Blair, whenever you are ready, you may proceed.

           STATEMENT OF ROBERT BLAIR, VICE PRESIDENT,
         AGRICULTURE DIVISION, MEASURE, THE DRONE AS A
  SERVICE<SUP>'</SUP> COMPANY; OWNER/MANAGER/OPERATOR, BLAIR 
                      FARMS, KENDRICK, ID

    Mr. Blair. Okay, thank you.
    Good morning and thank you, acting Chairman Lucas, acting 
Ranking Member Graham, and Members of the House Subcommittee on 
General Farm Commodities and Risk Management. I am honored to 
be here today and I appreciate this opportunity to discuss the 
benefits of Unmanned Aerial Vehicles, UAVs for short, in 
agriculture and some of their challenges. My name is Robert 
Blair, a fourth generation north Idaho farmer raising wheat, 
barley, peas, lentils, and garbanzo beans on the rolling hills 
of the Palouse. I am also the VP of Agriculture for Measure, 
the leading Drone as a Service<SUP>'</SUP> Company. We put 
pilots and systems in place for agriculture and other 
industries to collect data and return it to the customer in a 
timely manner.
    Agriculture has a tremendous challenge and responsibility 
of producing enough food to feed nine billion people by the 
year 2050, and doing so sustainably. Global agriculture is 
under increased pressure from different sectors to reduce water 
use, reduce erosion, and reduce inputs, while increasing crop 
quantity and quality. The agriculture industry cannot do this 
alone, but utilizing precision agriculture technologies, 
especially UAVs, those working and managing the land can be 
successful in this mountainous challenge.
    For five generations, my family has incorporated new 
farming technologies and practices to raise better crops with 
less labor and inputs. Our farm was started in 1903, and my 
family has gone from using horses to continually updating 
tractors through the years, tractors that have computers and 
technology, allowing for placement of inputs exactly where they 
are needed from information collected from a UAV.
    Many things affect crop production, especially weather and 
management. The slide you are looking at is from a 2015 study 
conducted by Measure and multiple sponsors, many in 
agriculture. The study shows crop yield gap reduction potential 
is reduced approximately 20 percent. This study also shows that 
UAVs can positively affect the management gap by 25 percent. 
Based upon my own experiences, UAVs can also reduce the impacts 
caused by weather.
    Any aerial data needs to fit into a cab to be useful, 
otherwise it is just a picture. Today's agriculture machinery 
has the capability to apply multiple products, either full 
boom, in sections, or by individual nozzles. Data collected 
from UAV can be used by the farmer to do crop application in 
all three instances.
    With the announcement of Part 107 on Tuesday by the Federal 
Aviation Administration, there is a certainty that UAV 
operations are here to stay in the United States, and 
agriculture can benefit. However, there is still work that 
needs to be done. Agriculture cannot wait for a slow 
application process to fly in restricted areas that results in 
losing a generations' worth of information. Capturing photos 
and videos from a UAV is not enough. Agriculture needs 
friendlier regulations in place that allow for UAV application 
of products. Furthermore, Congress and USDA need to start 
working today to incorporate UAVs into the next farm bill, 
while the FAA should strongly consider giving agriculture a 
seat at the UAV rulemaking table.
    I started my precision ag journey in 2003 doing simple 
mapping with a PDA and a magnetic receiver. Holding everything 
at the same time was difficult, as you can see here, trying to 
pull out the stylus. Well, following the footsteps of what 
farmers have done for centuries, I created the solution to the 
problem by riveting a piece of metal on the brim of my hat to 
hold the receiver. This same hat represents an opportunity 
today to start shaping a new solution for the Risk Management 
Agency and crop insurance industry by utilizing UAVs to assist 
and adjust for claims. Currently when a hailstorm damages my 
crops, I would go out in the field with the adjuster. After 
walking into the crop where I am guessing damage occurred, the 
adjuster or I would throw the hat and do the official 
inspection. UAVs can collect high resolution images ahead of 
boots-on-the-ground inspections so farmers and adjusters can go 
to those exact areas that are damaged. No more hat throwing.
    We are in the information age where timing of data is 
becoming more critical every day. The precision agriculture 
industry is already trying to put a fire hose worth of data 
through a straw, and with the announcement of Part 107, the 
amount of data collected will only put more strain on an 
inadequate Internet infrastructure in rural America, and will 
only compromise the ability of American farmers to compete in a 
global economy.
    With today's low commodity prices and tighter margins, UAVs 
and companies like Measure can help reduce costs, increase 
productivity, and turn precision agriculture into surgical 
agriculture. I am very optimistic about the future of 
agriculture and UAVs, because in America, the sky truly is the 
limit and UAVs can help keep farmers where they belong, on the 
farm.
    Acting Chairman Lucas, acting Ranking Member Graham, and 
Members of the Subcommittee, thank you for the opportunity to 
testify before you this morning. I look forward to answering 
your questions.
    [The prepared statement of Mr. Blair follows:]

    Prepared Statement of Robert Blair, Vice President, Agriculture 
 Division, Measure, the Drone as a Service<SUP>'</SUP> Company; Owner/
              Manager/Operator, Blair Farms, Kendrick, ID
    Good morning and thank you Chairman Crawford, Ranking Member Walz, 
and Members of the House Committee on Agriculture. I am honored to be 
here today and appreciate this opportunity to discuss the benefits of 
drones in agriculture and some of the challenges that impact its 
adoption and implementation.
    My name is Robert Blair and I am a fourth generation north Idaho 
farmer raising wheat, barley, peas, lentils, and garbanzo beans on the 
rolling hills and canyon tops of the Palouse growing region. I am also 
the VP of Agriculture for Measure, the leading Drone as a 
Service<SUP>'</SUP> Company that offers a drone flying service to 
agriculture and other industries. We put pilots and systems in place to 
collect data, do analytics, and return the data to the customer in a 
timely manner.
    It is vital to the national security of the United States of 
America and to the rural communities throughout that agriculture 
remains strong and viable. Rural communities greatly depend upon the 
economic success of agriculture but it goes farther than that. All of 
America, along with those in many other countries, depends upon U.S. 
agriculture success as well. I truly believe that agriculture 
technology, especially the use of UAVs (Unmanned Aerial Vehicles), sUAS 
(small Unmanned Aircraft Systems), or drones, as many people call them, 
will pave the way from precision agriculture to surgical agriculture.
    Agriculture has a tremendous challenge and responsibility of 
producing enough food to feed nine billion people by the year 2050 and 
doing so sustainably. Agriculture domestically and internationally is 
under increased pressure from many different sectors to reduce water 
use, reduce erosion, reduce pesticide use, and reduce nutrient 
applications while increasing crop quantity and quality. The 
agriculture industry cannot do this alone, but by utilizing precision 
agriculture technologies, especially UAVs, those working and managing 
the land can be successful in the mountainous challenge.
Agriculture Technology Background
    The agriculture industry has always been on the leading edge of 
incorporating technology. From the beginning of time humans evolved 
from poking their finger in the ground to using a stick to plant seeds. 
The Industrial Revolution saw inventions like John Deere's plow, 
McCormick's reaper, and Eli Whitney's cotton gin help to increase 
productivity, increase quality, and to replace rural labor that was 
migrating to cities.
    My Great, Great, Great Uncle started the farm in 1903, the same 
year Henry Ford started his company that gave us assembly lines, the 
same year the Wright Brothers had the first successful manned powered 
flight, and the same year of the first successful west to east radio 
signal transmission. These innovations are the corner stones for 
today's agriculture equipment and precision technologies.
    I started my precision agriculture journey in 2003 by using a 
simple PDA (Personal Data Assistant) to do simple mapping. Holding the 
device, the stylus, and the GPS receiver brought about a challenge of 
needing a third hand which led me to creating my own innovation by 
riveting metal on the brim of my hat to affix the magnetic GPS receiver 
to so I could run the stylus and hold the device.
    From that point on, I didn't look back. I incorporated a yield 
monitor, which led to saving 20-25% of nitrogen costs; autoboom, which 
has saved me between 10-15% on seed, fertilizer, and pesticides; and 
autosteering, which has reduced my overlap between 3-5%.
    It was a very exciting time in 2004 learning about these 
technologies, incorporating them on my existing equipment, and trying 
to figure out how they could best serve me and my quest to be a better 
manager and steward of the land. It wasn't until I flew in a manned 
plane that summer that I realized aerial imagery was the missing piece 
to the precision agriculture puzzle.
Agriculture UAV Timeline
    Being able to see crops growing from the air in 2004 provided a 
perspective I never had before. I could see areas in my crops that were 
doing very well and others that were falling down. When scouting a 
field, problem areas are hard to identify until I am in the middle of 
the worst part. Being able to see my fields from the air was an ``ah 
ha'' moment for me.
    At the time I did not realize that the person I was working with 
was introducing me to remote sensing. He was using a modified camera 
with a filter to try to capture images to produce a Normalized 
Differential Vegetative Index (NDVI), a form of vegetation health 
analysis.
    However, the crop ``production line'' does not shut off or get put 
on hold while aerial data is being captured and processed; the crops 
keep growing. I had to wait at least 3 weeks for the plane to come to 
my farm and then another 3 weeks to get the information that I was 
paying $6 an acre for. Too much time had passed to where I could take 
action to address issues. The information needed to be timely. We have 
come a long way since I saw an ad for a UAV in 2006 but the need for 
timely information has not changed.
    In the early days of experimenting with my UAV I discovered many 
shortcomings with the technology. Existing agriculture software was 
inadequate at utilizing UAV data, photo stitching software was 
practically non-existent, and analytical processing software was almost 
not even thought of. I was at the cusp of what this new technology 
could achieve.
    In 2008, I filed the first petition for exemption to the U.S. 
Federal Aviation Administration (FAA) for commercial UAV use in 
agriculture, along with providing the FAA documentation on guidelines 
of how they should be used; many of my points are very similar to the 
current exemption rules. I also petitioned to try and obtain a seat at 
the FAA rulemaking table for agriculture. To this date agriculture 
still does not have a seat at the table.
    Around the same time in 2008, many people outside of agriculture 
saw the possibilities of what this technology could do and companies 
sprang up overnight building less expensive UAVs and better software; 
technology that farmers could afford. I no longer needed to worry about 
building my own UAV, modifying cameras, cobbling software together or 
trying to understand hard to use autopilots and flight software. It all 
comes down to being able to put UAV collected data into the cab of a 
tractor, applicator, or mobile device.
    On June 18, 2014, the FAA defined what constituted as commercial 
versus hobby UAV operations. Since that time, I have not piloted a UAV 
over my own property; instead, I have complied with the rules and had 
certified pilots operating under FAA Section 333 exemptions to gather 
data over my farm. An example of the distinction made between 
commercial and hobby use is that while I can fly a UAV over my property 
and take all of the pictures and video I want, the moment I use that 
information to make management decisions, I am a commercial UAV 
operator.
    Over the years I have been asked many times ``Who will be flying 
UAVs, the farmer or a service provider?'' With my experience in this 
industry, I see a future of service providers flying for agriculture. 
Farmers, ranchers, crop advisors, and agronomists have enough on their 
plate let alone becoming an aviation expert, remote sensing expert, 
software expert, and/or geographic information systems (GIS) expert. 
Instead, UAV service providers like Measure can collect the data to 
make the jobs of those with boots on the ground easier. A crop advisor 
friend stated, ``I am currently managing 20,000 acres and with your 
service I could double the acres along with having better information 
for the farmer.''
    Part 107 was announced on Tuesday, June 21, 2016. There are a 
couple of provisions beneficial for agriculture such as obtaining a 
remote pilot certificate instead of needing a full pilot's license and 
not being required to have a visual observer. Both of these provisions 
will save costs making it less expensive to conduct business.
    However, I believe UAV service providers like Measure will still be 
needed due to the time required for flying, processing imagery, and 
trying to make the imagery into actionable information. Operating 
safely is a priority of Measure and we will use highly trained and 
certified pilots to carry out flights.
    While Part 107 is a major milestone for the UAV industry there is 
still work that needs to be done. Beyond line of sight (BLOS) operation 
will be needed to cover the millions of agriculture acres in the United 
States in a timely manner. Rules to fly at night with thermal cameras 
can collect data with higher accuracy due to the cooler evening 
temperatures. Also, further clarification is needed to conduct aerial 
application of pesticides with UAVs.
UAV Benefits and Opportunities
    Before I had even heard of a UAV I saw tremendous potential for 
aerial imagery that could help my farm and the agriculture industry. I 
asked myself questions such as: ``Can I apply nitrogen as needed and 
where it's needed during the growing season with certainty,'' ``Can I 
identify weed infestations and treat twenty percent of the field 
instead of 100 percent,'' or ``Where should I go to do a visual 
observation, take a soil sample, take a tissue sample, or do a 
combination of the three?''
    I have been fortunate to speak domestically and internationally on 
the benefits of precision agriculture, remote sensing, and UAVs and 
listen to people's questions on how could this technology be used on 
their farming operation. I have also benefited from doing two different 
agriculture fellowships that allowed me to interact with thought 
leaders and technology adopters at all levels in South America and 
Europe. These experiences have provided me with a better understanding 
of what UAVs can do for agriculture.
    Last year Measure did a high-level, two-part study on agriculture 
UAVs with many different industry partners as co-sponsors. The 
highlight for me was the part of agriculture crops that are lost to 
weather and management. Roughly twenty percent of a crop is lost and 
the report indicated that UAVs can help gain back \1/4\ of what is lost 
due to management. I believe there can be even larger gains because 
better management and direct application can lead to gains against 
weather.
    My experiences helped me gain a unique understanding of how UAVs 
can help agriculture today and in the future. Below I will list and 
briefly describe where UAVs can be of service to agriculture.

  <bullet> General Scouting--UAVs can assist farmers and agronomists/
        crop advisors with their scouting by covering the acres in 
        advance of needing to put boots-on-the-ground. Currently those 
        in agriculture go into a field to find a problem. UAVs can 
        scout ahead of time, locating specific areas that would need 
        further inspection. Another scouting benefit of UAVs is the 
        amount of area it can cover. A UAV can cover 100 percent of a 
        field, while the example included in the testimony only covered 
        around five percent.

  <bullet> Nutrient Management--Fertilizer is a major expense for most 
        crops. UAVs can be used to identify and monitor production 
        zones created for variable rate application of nitrogen. This 
        type of application not only reduces costs for the farmer but 
        also helps reduce impact on the environment by applying what is 
        needed where it is needed.

  <bullet> Irrigation Management--In irrigated crops water management 
        is critical. UAVs can help identify zones to apply water at 
        varying rates and identify irrigation equipment issues such as 
        a plugged nozzle, a worn out nozzle, etc.

  <bullet> Weed Identification--UAVs can obtain high enough resolution 
        imagery that can show weeds between the rows before a crop 
        canopies. The ability to use this data so a farmer can 
        determine the threshold level on treating an area versus not 
        applying can save thousands of dollars at the farm level.

  <bullet> Insect & Disease Detection--While this is very similar to 
        weed detection, it is more difficult to achieve in most cases. 
        The creation of new sensors and a better understanding of where 
        these pests show up on the spectrum chart are things the 
        agriculture and UAV industry need to strive for.

  <bullet> UAV Aerial Application--Japan has been doing aerial 
        application of pesticides for almost thirty years. In the 
        United States we are just getting started. These UAVs can be 
        used to do spot applications in fields for small pest areas 
        along with operating safely in difficult terrain such as 
        pasture hillsides and grazing land. It could also operate 
        safely over fields that are located within urban areas.

  <bullet> Crop Insurance--Crop insurance is the cornerstone of risk 
        management for farmers. UAVs could provide high resolution 
        images to identify the area of a field that has been damaged by 
        weather to assist the crop adjuster. Currently, the area 
        designated for damage counts is identified with the toss of the 
        farmer's or crop adjuster's hat. Where the hat lands is where 
        crop inspection begins. Using UAVs to determine the severity of 
        weather damage would be an improvement upon this process.

  <bullet> Crop Stand & Germination--UAV imagery can be used to detect 
        how well a crop has been established and/or if there are 
        germination issues so the farmer can determine if he/she should 
        reseed. In the case of sugarcane, understanding what percentage 
        of the sugarcane crop is viable at ratoon * 2 or ratoon 3 is 
        important so the farmer can determine if he can leave the 
        existing crop in another year or if it should be worked up and 
        planted to something else.
---------------------------------------------------------------------------
    * Editor's note: Ratooning (from Spanish retono, ``sprout'') is a 
method of harvesting a crop which leaves the roots and the lower parts 
of the plant uncut to give the ratoon or the stubble crop. Retrieved 
from http://www.britannica.com/eb/topic-492099/ratooning. Britannica 
Online Encyclopedia. Retrieved 2009-01-19.

  <bullet> Cattle--A thermal imaging camera could be used in a feedlot 
        situation to detect sick animals along with detecting a cow in 
        heat that is ready for artificial insemination. Furthermore, we 
---------------------------------------------------------------------------
        can use thermal data to locate cattle on the range.

    These are just a few innovative ways that UAVs can be used today. 
Just imagine what they could do tomorrow on farms and ranches to help 
American agriculturists compete on a global scale and ensure that food 
is continually on the dinner table. We need to look at ways this 
technology can also be used by the United States Department of 
Agriculture (USDA) to keep up with the rapidly evolving and tech savvy 
agriculture industry. I believe there are many uses that each 
department could take advantage of including:

  <bullet> Risk Management Agency--Crop insurance claims, reporting and 
        validation.

  <bullet> Farm Service Agency--Crop reporting accuracy, especially 
        with spring crops.

  <bullet> Animal, Plant, & Health Inspection Service (APHIS)--I have 
        had discussions with Under Secretary Osama El-Lissy about using 
        UAVs to inspect cargo ships and containers to identify insect 
        larvae and nests. Also, how UAVs can be used in the battle to 
        eradicate the boll weevil by identifying host plants in non-
        cropped areas and then do an herbicide application by UAV 
        instead of by foot.

  <bullet> Natural Resource Conservation Service--Not only could UAVs 
        be a program enhancement for the Environmental Quality 
        Incentives Program (EQIP) or the Conservation Stewardship 
        Program (CSP), it could help to better assess residue in fields 
        instead of using a 100 string line with markers on it.

    While I could go on listing more departments and uses, I believe 
this paints a great picture of why UAVs need to be a more integral part 
of the next farm bill discussion. Everyone from Congress to the farmer 
and agriculture organizations to UAV companies need to start talking 
now on how this technology should be used and incorporated at all 
levels. This is a tremendous opportunity for all segments of 
agriculture.
Challenges
    The future of UAVs in agriculture is here. As we watch the creation 
of a brand-new technology and industry unfold before our eyes, 
questions emerge: who should be working on this new technology, how 
should it look, what time frame is acceptable, and how can UAVs be used 
safely? None of these are easy questions to answer, and in order to 
promote this technology for adoption, the following challenges must be 
addressed:

  <bullet> Aging Agriculture--While I initially look at this as a 
        benefit for using UAVs, it is also a major hurdle. The average 
        age of a farmer and for the most part, those in supporting 
        businesses, is between 57-59 years old. They are getting close 
        to retiring and in most cases do not want to learn something 
        new. My question to Congress, USDA, and the agriculture 
        community is: ``What can we do to incentivize the agriculture 
        industry to adopt the use of this technology?'' One thought is 
        to provide a premium reduction on crop insurance for 
        implementation of the technology that is reducing risk from 
        weather.

  <bullet> Local Expertise--In most instances there is not enough 
        expertise to show farmers and ranchers the benefits of UAVs and 
        how to use the data. Agriculture has relied upon universities 
        and their Extension to be experts, but due to cuts in 
        agriculture funding, that expertise has fallen behind. We need 
        to act now to attract young people into agriculture and 
        technology could be very attractive to a new generation of 
        agriculturists.

  <bullet> UAV Regulations--The FAA has the important responsibility 
        and challenge to keep the sky safe while trying to incorporate 
        UAVs into the most congested airspace in the world; no small 
        task. I would like to pose some examples for the FAA to 
        consider when it comes to how American farmers could benefit 
        from using UAVs for agriculture:

    <ctr-circle> Aerial Application--Japan has been using a helicopter 
            UAV to apply pesticides for almost thirty years and that 
            program is overseen by their Ministry of Agriculture, 
            Forestry, and Fisheries. In the United States, UAVs are 
            being flown under exemptions instead of permanent rules for 
            pictures and video--not for pesticide application. I am 
            hopeful that this week's announcement by the FAA 
            accelerates this application.

    <ctr-circle> Competing Countries--I spent 6 weeks on an Eisenhower 
            Agriculture Fellowship studying precision agriculture, 
            remote sensing, and UAVs in Argentina, Uruguay, and Brazil; 
            countries that are direct competitors to U.S. farmers and 
            commodities. Not only did I see the first UAV for 
            agriculture fly in Uruguay at a field day in Rosario, but 
            they streamed the video from the UAV to a large screen on a 
            truck. I have never seen that level of technology used in a 
            U.S. field day.

    <ctr-circle> Timeliness for Agriculture--For 2 years I have been 
            trying to fly over the test plots of one of the largest 
            wheat breeding companies in the world with no success. The 
            process to obtain permission to fly within restricted 
            airspace in Walla Walla, Washington and other restricted 
            airspace locations where agriculture is located could be 
            better. The trials at Walla Walla were for drought tolerant 
            varieties and the last time a drought was as severe as last 
            year in the Pacific Northwest was in 1977. The lack of a 
            timely process led to agriculture losing a generation's 
            worth of data.

  <bullet> Big Data--Ownership and integrity of the data Measure uses 
        its UAVs to collect are very important and we work hard to make 
        that a priority. However, with more technology evolution and 
        use looming in the future, all segments in the agriculture 
        chain need to make data security a priority.

  <bullet> Rural Connectivity Infrastructure--Agriculture and natural 
        resources are the major economic sectors that keep rural 
        communities going. Many of America's farms and ranches are 
        international companies that do business on the world market. 
        At this early stage in agriculture UAVs, we are trying to put a 
        firehose worth of data through a straw with Internet connection 
        speeds on my farm at 5-8 Mbs down and less than 1 Mbs upload. 
        America can and should do better.

  <bullet> Agriculture Representation--Agriculture needs a seat at the 
        FAA table to make sure rules that are proposed will work for 
        our industry. The USDA motto of ``Agriculture is the foundation 
        of manufacture and commerce'' is as true today as it was when 
        it was first uttered, especially in ensuring the economic 
        success of rural America.

  <bullet> Safety--This is a critical challenge for not only 
        agriculture UAVs but the entire UAV industry. Measure's mantra 
        is ``Safe, Legal, and Insured'' and we try to live that and 
        lead by example. Often, outsourcing to service providers whose 
        responsibility is to fly within the current scope of unmanned 
        regulations is the safest way to obtain aerial data. It is my 
        hope that Measure and the agriculture UAV industry can help 
        lead the way on this important issue.

  <bullet> Investment--We are living in a time when the United States 
        is putting less money into agriculture research when competing 
        countries are increasing theirs. This trend needs to change for 
        our national and global security. We are watching the birth of 
        the UAV industry in agriculture; we must nurture it so it can 
        mature successfully and become a benefit to American society.

    Even though there are many more challenges that could be listed and 
that the growing UAV industry will be encountering, I am very 
optimistic that with good communication, increased understanding, and 
everyone working toward the same objective of safely incorporating UAVs 
into the National Airspace System (NAS) and the agriculture industry we 
truly will be successful.
Closing
    Agriculture has evolved from poking fingers into the ground to 
using those fingers to select a specific spot on a screen to be 
captured by a UAV. Agriculturists have been doing remote sensing in 
shades of green since the beginning of time and now we need to help 
this new crop of agriculturists to see things in colors of not just 
green, but in red, yellow, blue and all shades in between.
    The journey that UAVs have taken me on has brought me closer to my 
roots by looking at the technology used on my farm over five 
generations while at the same time making me ask more questions about 
the future. What will UAVs be doing besides pictures, videos, and 
aerial application in 5 years?
    Again, agriculture cannot do all the lifting alone; we will need to 
work with industries, organizations, companies, and agencies we haven't 
had to work with before. However, agriculture does need a seat at the 
regulatory table for everyone involved to be successful.
    I am hopeful that my testimony has planted one of many seeds on the 
road to the next farm bill. Congress and USDA will need to work with 
traditional agriculture organizations while expanding to those in the 
UAV industry to start laying the foundation of how this technology can 
be used and promoted.
    However, without better connectivity and a stronger Internet 
infrastructure, rural America and all Americans will not benefit. Those 
utilizing precision agriculture and UAV data today are struggling 
greatly to deliver, in relative terms, this small amount of data today. 
America will need to invest into rural connectivity the same way 
America invested in a successful electrical infrastructure starting at 
the beginning of last century.
    We are in the information age where timing of data is becoming more 
critical every day. We have larger tractors, combines, and implements 
that are equipped with the technology that can utilize the data 
collected from a UAV. I have been implementing these technologies on my 
farm for over a decade and I am very optimistic about the future of 
agriculture, because in America the sky truly is the limit. With 
today's low commodity prices and tighter margins, UAVs can help reduce 
costs while keeping farmers where they belong . . . on the farm.
    Chairman Crawford, Ranking Member Walz, and Members of the 
Subcommittee, thank you for the opportunity to testify before you this 
morning. I look forward to answering your questions.
                              [Attachment]
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
          Since the farm was started in 1903, five generations have 
        been involved with major technology innovations in agriculture 
        moving from horses to tractors to autosteering to unmanned air 
        vehicles (UAV). This new generation of farmers and ranchers 
        have grown up with computers and precision agriculture and we 
        need to ensure today that there is a strong infrastructure in 
        place for these leaders of tomorrow.
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
          In 2006 I became the first farmer in the United States to own 
        and use a UAV. My two sons, Dillon and Logan have learned what 
        this technology can do and how it can be used for over a decade 
        to take pictures. They will need additional rules in place for 
        uses such as aerial application by UAVs.
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
          Scouting is traditionally done by sitting on a four-wheeler 
        and driving through a field to find problems. This is 
        inefficient, time consuming, and does not see all of the acres. 
        Above, the green line is twenty feet wide and follows the 
        tracks of the four-wheeler. The twenty feet represents being 
        able to see into the canopy 10 on each side of center which is 
        less than five percent of the field.
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
        
          Incorporating a UAV to detect problem areas, farmers can 
        place markers on the field like the ones in green to scout to, 
        instead of hoping to see problems just driving or walking 
        through a field. We can also create management zones and adjust 
        inputs based upon productivity potential.
Estimated Yield Increases
  <bullet> Closing the yield gaps

    <ctr-circle> Estimated yield gaps range from 15% to 30%.

    <ctr-circle> Approximately 50% of gap is due to weather.

      b Remainder due to sub-optimal management and information.

  <bullet> Based on research and interviews, drones are estimated to 
        reduce management yield gap by 25%.
       [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
          In a 2015 study conducted by Informa for Measure and 
        sponsoring agriculture partners it highlighted that UAVs could 
        recover 25% of the yield lost by improper management. I believe 
        that utilizing UAVs during the growing season reductions in 
        yield lost by weather can also be gained by increasing test 
        weights, reducing shrunken and broken kernels, and increasing 
        overall quality.
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
          Images captured by UAVs have greater resolution that can show 
        more issues to address in a crop. Solutions for treatment can 
        be incorporated into the cab of a tractor or applicator for 
        precise placement reducing costs and impacts on the 
        environment.

    Mr. Lucas. Thank you, Mr. Blair.
    The chair would like to remind Members that they will be 
recognized for questioning in order of seniority for those who 
were here at the start of the hearing, and after that, Members 
will be recognized in order of arrival. I appreciate Members' 
understanding, and with that, I recognize myself for 5 minutes.
    Gentlemen, the Committee just concluded a six-part hearing 
series focusing on the farm economy and the downturn of the 
last couple of years. Things in farm country, we would all 
agree, are starkly different than they were just a couple years 
ago when the 2014 Farm Bill was signed into law. In fact, 
percentage-wise statistically, the 3 year drop in net farm 
income that we have encountered is, in some ways reminiscent of 
the Great Depression and some commodity years, perhaps even 
worse.
    That said, though, given the downturn in the farm economy, 
how has that affected the utilization and the adoption of 
imagery in production agriculture? Basically what I am asking 
is when we had the higher prices, to what extent were farmers 
willing to adopt the new technology, and now with the 
significant drop, how has that affected their willingness to 
step up and use the services that have been developed and are 
being developed?
    And with that, in no particular order, I will start with 
Mr. Blair, and if you would care to offer a response, and then 
your colleagues, if they would like to comment.
    Mr. Blair. Okay, thank you, Chairman Lucas.
    For me as a farmer, we have seen going from a $6 week down 
to $5 week. Talking with clients around the company or 
potential clients, it is hard to sell. They are not adopting 
it, and then if we look at the lending institutions and the 
bottleneck created there, they don't understand the technology 
and the benefits they provide as well, creating further hurdles 
in adopting this technology.
    We need to work harder in getting the word out as to what 
this technology can do, from universities, from land-grant 
system extension, private-sector, and USDA system. Here is the 
return on investment: Last year, I raised 105 bushel wheat on 
dry land in a drought year. Because I varied the rate of 
nitrogen, I was able to not only have very good yields, I had 
less impact from that drought by better quality, less shrunken 
and broken kernels, and less dockage. Furthermore, on my soft 
white wheat, because I had low protein, I gained an additional 
$10 an acre because I had that low protein from a premium. The 
technology can pay. We have not done as good of a job as we can 
showing what that return on investment is at the ground level.
    Mr. Lucas. Mr. Crago or Mr. Faleide.
    Mr. Faleide. I can comment on that on adoption. It is 
interesting over the years that it has been a difficult sell. I 
think whenever there are hard times, people look at different 
ways of being more efficient.
    In the mid-1990s when we were working with the sugarbeet 
industry, we saw a definite increase of usage by the company to 
push it to the farms because they needed to grow more sugar 
pounds per acre, and there was an advantage to monitor and 
manage the fields with nitrogen to create more economic profit. 
Then times started getting better in the farm industry in the 
late 1990s economically, especially in the 2000s, and recently 
very well. We actually saw more of a drop off or a complacency 
of using technology or data to drive the machines. Now most 
farmers were getting the equipment in their new tractors, and 
it has become OEM required because you can't sell your tractor 
again if you don't have the proper equipment. So that was a lot 
of the argument I was getting.
    Now actually, we thought in the last year or so that we 
were going to see a drop off in interest because of the 
economic problems. We are seeing the opposite, partly because 
our company is ready to deliver. We can deliver any image to 
any field that the satellite rolls over at a moment's notice. 
We have the distribution system in place. We have the big data 
infrastructure behind us, and we are getting data. Now we still 
need more images. We need more images from satellites. We 
wanted more imagery from aerial and to incorporate the UAV data 
as well, which we are doing. But we are finding actually that 
we are seeing an uptick of interest because we have an 
actionable solution that can provide it like that, and that is 
part of the whole problem of bringing data and imagery to the 
agriculture sector. We do not have enough infrastructure of 
satellites on my end. We are working with many satellite 
companies to get more satellites up, and that is going to 
happen over the course of the next 1 to 2 to 3 years. But, 
right now, we are actually seeing an uptick on information.
    Mr. Lucas. Mr. Crago, any thoughts?
    Mr. Crago. Well, I am not a farmer, but I have worked with 
the USDA for close to 20 years now, and what I have seen is the 
desire and requirement of the APFO in Salt Lake City is really 
being a base for providing fundamental information and data to 
the farmer, and providing it in a manner that is fairly open to 
them.
    From my perspective, one of the areas that really requires 
some work is in the implementation of tools and customized 
tools, specifically as it relates to precision agriculture and 
other uses farmers make of that in being able to use the data. 
And so, in my perspective in my work, we really are trying or 
attempting to provide a base data layer set that augments what 
these other two gentlemen have been talking about in terms of 
being able to interpret that data in manners that fit a 
particular farmer's issue, and there are a number of them. I 
appreciate that.
    Mr. Lucas. Thank you, Mr. Crago.
    My time has expired. The chair now recognizes the ranking 
gentlelady for 5 minutes.
    Ms. Graham. Thank you very much, Mr. Chairman. They left, 
but there was a group of Future Farmers of America in the back. 
I wanted to recognize them, because my question sort of segues 
from that.
    Mr. Lucas. I thought they were a bright looking bunch.
    Ms. Graham. We have bright ones in Florida as well, so it 
is consistent.
    One of my early meetings with FFA I was sitting there, and 
they were providing a presentation on UAVs, and I was just 
amazed at all that they were able to do with this technology, 
and recognize that the world that young farmers are growing up 
in. We really want to encourage young farmers to get into 
farming and have it as their life work, is changing so rapidly.
    So you all are experts in this area of UAVs and the new 
technologies in aerial imaging. I am wondering, what do you 
see? What do you think 10 years from now those new FFA groups 
will be involved in that we don't even, we may not be aware of 
it on the horizon, but certainly would be interested in what 
you all see as the next technology breakthrough and advancement 
in farming?
    Mr. Faleide. Just my viewpoints that, my youngest boy is 
now in college and my two older boys are mid-30s. But I told 
them a few years ago, I said it is up to you guys to figure out 
how to take our technology to the next generation, and they are 
doing that. They have worked for me and actually, my youngest 
is interning with me. It is interesting how the younger 
generation is so interested in the social media instant 
information, and everybody catches themselves: what is the 
answer for that? I will Google it, right? So that generation is 
now wanting the data immediately. Our generation tended to say 
we could take a while to get that answer. There is no time now 
to wait. And so the expectation of the younger generation is 
going to require more infrastructure to instantly provide that 
data to that young person.
    We are working with companies to create persistence 
imagery, 24/7 imagery over your field in certain locations of 
the country or the world. That generation wants it now, and 
that is going to be the main thing is the phone, the mobile 
device is a part of their social being. That is what the answer 
is going to be in my belief, that they are going to demand 
data, and the infrastructure has to be in place. The fiber has 
to be in place in the rural areas, or they will not agree with 
that policy if it is not done.
    Ms. Graham. Thank you. Does anyone else have any ideas? Mr. 
Blair?
    Mr. Blair. Yes, thank you. Thank you, acting Ranking Member 
Graham. I, too, wore the blue jacket and it is exciting to see 
these young kids growing up in this time. I grew up on an open 
deck tractor pulling clutch and pressing brake on a 
Caterpillar, not fun. Those were the good old days.
    Today, what we are seeing is an exponential increase of how 
technology is evolving. I fought doing e-mails. I liked letters 
and phone, face-to-face conversation. Now give me an e-mail. I 
fought it, too. Back in the mid-1990s, one of the crop 
protection providers sent out freebies. It was a Velcro box. 
Open it up, here is our product, and you open the pages, and 
here is this robot hovering over the ground sucking up the 
weeds. Another one they sent out showed a robot on tracks 
picking it up and eating them. We are heading in that 
direction. Today, we are taking pictures and videos. Tomorrow, 
are we going to be putting lasers on UAVs to spot treat for 
disease like fire blight in apples, maybe, or the orange 
industry?
    We have done flights down there for lettuce, string beans, 
and sugarcane, and we believe that technologies like thermal 
imaging will get better and that we can look at transpiration 
from those crops to detect earlier these disease issues that 
affect their quality. So we will be evolving quickly with new 
sensors and new platforms.
    Ms. Graham. Thank you. My time has expired. It would be 
great if we could develop a laser to take out fire ants. That 
would be great.
    Anyway, I yield back, Mr. Chairman. Thank you all very 
much.
    Mr. Lucas. As Mr. Blair knows, you have not lived until you 
have been on that tractor with the heat coming off the engine 
and the exhaust in your face. The good old days.
    The chair now recognizes the gentleman from Alabama, Mr. 
Rogers, for 5 minutes.
    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Blair, Auburn University is in my district. It is a 
research university. Engineers and scientists there have been 
studying how the data collected by Unmanned Aerial Systems 
carrying different types of sensors can be used to improve how 
we manage agriculture and forestry. One of the current 
limitations in deploying UAS over larger agricultural fields or 
forests is a rule that our aircraft must be in view of the 
pilot during operation. Now the forestry industry is 
significant in Alabama. When flying UAS over forests, 
maintaining this line of sight between the pilot and the 
aircraft is particularly difficult. What kind of development 
work is being done in your industry to alleviate the concerns 
of the FAA and ultimately allow the UAS to fly safely beyond 
the line of sight?
    Mr. Blair. Thank you, Mr. Rogers, for that question. Line 
of sight and flying beyond line of sight is very important, not 
only for agriculture, but for the natural resource industry as 
well, and forestry. Idaho, about 80 percent or around 70 
percent are public lands and mountains. We need that beyond 
line of sight.
    What is being done, the FAA has a pathfinder program, and I 
know there are companies working on this beyond line of sight 
issue. Right now, the technology can allow and is good enough 
to allow for UAVs to already fly safely beyond line of sight. 
It comes down to regulations and being able to isolate or 
locate areas where we could fly line of sight in commercial 
research purposes that can benefit both agriculture and the 
forestry industries.
    Mr. Rogers. Okay, thanks.
    Mr. Crago, given the increasing discussions about 
Americans' privacy concerns, how can we be sure that these 
systems will maintain American privacy and that the data 
collected won't be shared with outside groups?
    Mr. Crago. Thanks for the question. Privacy is a big issue, 
and I know that it has raised its head in a number of 
instances.
    In the case of the aerial imagery that is being taken for 
the NAIP Program, there is a longstanding rule and protection 
of the information within FSA to the extent that I am not aware 
of any privacy issues that have ever arisen out of aerial 
imagery taken for the NAIP Program at 30,000 or at 20,000. 
This imagery is highly technical in nature, and the 
distribution of private information as I know the contractual 
requirements put on us is extremely well-protected within FSA. 
I am not aware of any issues of that nature.
    Mr. Rogers. Thank you, Mr. Chairman. I yield back.
    Mr. Lucas. The gentleman yields back. The chair now 
recognizes the gentleman from Georgia, Mr. Austin Scott.
    Mr. Austin Scott of Georgia. Thank you, Mr. Chairman, and 
Mr. Blair, we have heard a lot about a number of different 
technologies, but they all provide imagery.
    How does a farmer know which type of imagery is right for 
his or her operation, and what factors should a farmer consider 
when deciding on which imagery or how imagery might fit into 
their farm?
    Mr. Blair. Thank you, Mr. Scott, for that question.
    The type and size of imagery is dependent upon the 
management style of the farmer and what their goals are. It is 
my job to help them figure out what their goals and what their 
objectives could be. Are you looking for disease or insects on 
leaves? We need higher resolution. If you are looking at 
nutrient management, less resolution images can work fine. But 
it comes down to our equipment, how can that react, and right 
now, all three technologies, satellite, manned aircraft, and 
UAVs are collecting good data. We need to get the word out 
there on how to utilize it better and for that return on 
investment.
    Mr. Austin Scott of Georgia. It seems to me that one of the 
key factors of the UAV is that the individual farmer has the 
control over the time at which the imagery is taken, and that 
that would be one of the key differences where they don't have 
the control with the other technologies. I may be wrong about 
that, but----
    Mr. Blair. Yes, Mr. Scott. It is timelier information. We 
can fly under the clouds where a lot of times satellite can't 
get through. We can put different sensors on there, like 
thermal imaging, and collect higher value data in a lot of 
instances, and get that higher resolution image of about 2 
centimeters. The timing right now, we can cover a lot of 
territory and ground. We just need that beyond line of sight 
would be very, very helpful to incorporate this technology.
    While Part 107 has been useful and is giving us in the 
industry some permanency with UAVs, there is still work to be 
done and line of sight is one of those.
    Mr. Austin Scott of Georgia. Mr. Crago, why does the NAIP 
Program use manned aircraft when we have satellites that can 
provide similar imagery, and can you provide us specific 
examples where the manned aircraft would be able to provide, 
would be a better source for the imagery than the satellites?
    Mr. Crago. Well, if you understand the requirements under 
the NAIP Program, the NAIP Program is designed for agriculture 
crop management. So what that means is that the imagery needs 
to be taken when the crops are at their peak. So if you take 
the State of Texas, for example. The State of Texas is divided 
into four acquisition seasons that are defined by the APFO, and 
the window to acquire those seasons ranges from anywhere from 2 
weeks to 3 weeks. So what is required is an extreme amount of 
capacity to be able to acquire that imagery in an extremely 
short period of time. The comparison between satellite 
acquisition, which is completely dependent upon the orbit of 
the satellite and the timing of it, wouldn't facilitate, or 
generally wouldn't facilitate, the ability to acquire that 
imagery within that particular growing season. And so in the 
case of the NAIP Program, you can see as many as six or seven 
aircraft being mobilized to a particular area for a 2 day wet 
weather window in the ability to acquire all of south Texas.
    And so notwithstanding that, satellite plays a very 
valuable role in being able to acquire imagery, but in terms of 
being able to address the seasonality of the USDA's 
requirements, the only current way of achieving that is fairly 
massive manned aircraft sensors that can address that.
    Mr. Austin Scott of Georgia. Thank you. I am down to 30 
seconds, but Mr. Faleide, you have been in this business a long 
time, and one of the issues that we wrestle with today with 
data is who owns the data? And I would be interested in your 
opinion on who you think should own the data, and whether or 
not there is a difference between satellite imagery and UAV 
imagery, and who should own the data?
    Mr. Faleide. Well, thank you. Let me start with those 
different platforms. These UAV aerial and satellite are just 
platforms for a camera. Each one has different abilities 
occurring at different resolutions. Like Mr. Crago said, there 
are airplanes that come in and specifically target at high 
resolution. Satellites will come in more commonplace and see 
general areas. Now the satellite infrastructure is improving 
rapidly, but you have to put satellites in the category right 
now is the best I can get on a satellite right now is 31 
centimeters. It is going to move to 25 centimeters, up to 30 
meter resolution, depending on what you want. Airplanes fit in 
the category of about 6" resolution to approximately 1 to 2 
meter resolution, depending on how you scale your lenses. UAVs 
will be in the 1 millimeter range to about 6" level. So each 
one has its own category, so it depends on what you want to do. 
The more infrastructure of satellites that come in, you are 
going to see more infrastructure.
    Now as for privacy, the common rule of thumb is if I can't 
identify your face and know who you are, if you are just an 
object that is there, I have not gone past the privacy issue 
and the idea of who owns the data, we have taken the opinion 
that whoever pays for that data owns that, as long as I don't 
enter into your privacy situation. But once I can identify you, 
then I am going into a different realm and that can be 
problematic.
    Mr. Austin Scott of Georgia. My time has expired. 
Gentlemen, thank you for being here.
    Mr. Lucas. The gentleman's time has expired.
    The chair now recognizes the Vice Chairman of the full 
Committee from Texas, Mr. Neugebauer, for 5 minutes.
    Mr. Neugebauer. Thank you, Mr. Chairman. This device I have 
in my hand here would be a flashlight if it wasn't for the 
applications that are attached to it, and so one of the things 
I was wondering is Mr. Lucas and I sit on the Financial 
Services Committee, and we have seen a lot of interesting 
technology take place in that sector, and what was done is that 
there have been a lot of applications developed for financial 
products. But we have a bigger sector of potential users.
    I guess one of the questions I would have this morning is 
as the technology with UAV or satellite resolution, all that, 
as that is getting better, are they keeping up with the 
technology, and I will let whoever wants to jump on that first. 
Yes, sir?
    Mr. Faleide. Yes, I believe it is. At the beginning, based 
on the lower resolution imagery that we could pull in from 
satellite, we could look at a pattern within a field about 
every, let's say, 100, and bring that down to a level to 
control a 30, 50 applicator. Okay? And now with the higher 
resolutions, the industry is looking at while there is more 
data here, we are now able to boom control where we can split a 
boom, a 130 sprayer from the green machine would maybe have 
about nine to eleven sections. I can change those sections. 
Other companies are also bringing in nozzle control where the 
planters are going down to individual row units to variable 
rate that, or sections that requires higher resolution. So the 
more infrastructure that the OEMs and the machinery companies 
can start splitting these equipment into different rates, it 
requires higher and higher resolution imagery.
    So I believe the industry is adapting well. It is maybe not 
as fast as I want it, but it is adapting. Yes.
    Mr. Neugebauer. Mr. Crago?
    Mr. Crago. What we see is really two movements in it, and 
the first one is the standard type app that you would download 
onto your phone and operate on your phone. And to some extent, 
there are some, at least, visualization capabilities coming in 
that area.
    But equally important or possibly more important is cloud 
type where the iPhone or your smartphone is used to access some 
activity in the cloud, and that activity may be some form of 
remote sensing interpretation. So it could be different bands 
or spectrums of the imagery that is acquired, or things like 
change detection where it is comparing one vintage of imagery 
to another. There clearly is movement down, literally on the 
app on the unit, but maybe more importantly in the cloud where 
the handheld unit is used to access that through the cloud. It 
is moving, yes.
    Mr. Neugebauer. Yes. Mr. Blair?
    Mr. Blair. Thank you for the question.
    Applications are keeping up with the technology. Japan has 
been using a helicopter to spray for almost 30 years. We are 
just being able to do that here in the United States. The 
regulations aren't keeping up. That is what is not keeping up 
with the technology. Government programs are not keeping up 
with the technology either. We have a great opportunity, 
especially with UAVs, not only to do spot spraying applications 
after doing a flight and gathering that information. We have an 
opportunity to do crop adjusting, being able to gather that 
high resolution imagery to not only pinpoint the areas that 
have been damaged, but to hopefully assess where that damage is 
and how severe that it is.
    So is our data engineered for Measure? In a 10 minute 
period when we were on the phone talking, he created a 
functionality in our software deliverable of just being able to 
put points on a map as I am viewing that I can go out and 
scout. It is moving fast.
    Mr. Neugebauer. Yes, I know several of my colleagues have 
brought up the line of sight thing, but I think that is a very 
important part of it. Particularly when you take in my 
district, for example, we have farmers that are farming 5,000, 
10,000 acres, and for example, a UAV to be effective on that, 
rather than following the UAV around in your pickup, being able 
to program that UAV to go do a particular mission and come back 
and, I guess, download that information. The same way with the 
ranching, in my district we have ranches that are 20,000-30,000 
acres, and so if you are going to have the digital cowboy that 
is going to ride the fence, you are going to have to be able to 
program that.
    So what are some of the things that might be inhibiting the 
use of that technology, and what would be the message to this 
Committee?
    Mr. Blair. Well, one of the things is the regulations. We 
need to have beyond line of sight for natural resource use. 
Agriculture is not populated. You are not flying over a lot of 
people. We can fly safely and have flown safely. I have been 
UAV since 2006, and have not had an incident with any aircraft. 
It comes down to communication, and that is very easy. I am 
going to be talking to the crop duster who is going to be 
flying that low.
    The other one is we do need our agencies to be proactive as 
well in promoting this technology. How are we going to be using 
it? Thermal imaging to identify cattle, for identifying cattle 
rustlers in snow storms. I have had phone calls on a lot of 
these over the years. We haven't scratched the surface because 
we haven't had the regulatory certainty, and beyond line of 
sight is one of the most crucial rules that needs to be gone 
after for agriculture.
    Mr. Neugebauer. Thank you, Mr. Chairman.
    Mr. Lucas. The gentleman's time has expired. I would note 
to my colleagues that in the line, we have Mr. Gibbs, then Mr. 
LaMalfa, then Mr. Allen. With that, I turn to the gentleman 
from Ohio for 5 minutes, Mr. Gibbs.
    Mr. Gibbs. Thank you, Mr. Chairman, and thanks for this 
hearing. It is a very interesting topic, as we know technology 
happens fast and regulation of public policy lags. You have 
said that.
    One thing, I am also serving on the Transportation and 
Infrastructure Committee, and talking about drones and stuff, 
and it seems to me it is a no-brainer. Out in the rural area, 
far away from airports, the line of sight shouldn't even be an 
issue, especially if they are talking 400. What is the maximum 
altitude you really need for a drone to work well to do what we 
are talking about here?
    Mr. Blair. Well right now, 400, that is really good. To 
cover acres we could fly higher, but it comes down to what 
resolution do you need? If we start flying the UAV higher, is 
that the most efficient way or do we go to satellite or manned 
aircraft as the most efficient?
    Mr. Gibbs. I guess that may be my next question. The three 
components, your satellite, aerial, and drone, and I would 
think the drone, as a farmer, if I need real time data today, 
if I think I have a problem out in my bean crop or whatever, 
the drone would make a lot of sense, probably. I know the 
aerial is a wider spot. I guess that is the question I have. My 
understanding, the technology is adapting where we can go out 
and using these three technologies and determine insect 
infestation, disease, that is correct, right? I don't think 
anybody has said anything about yield. Can we determine 
possible yields through this technology?
    Mr. Blair. Yes, we are able to predict yield with some 
certainty. There are a lot of things that can affect it. I 
don't talk about yield because that brings in a whole----
    Mr. Gibbs. Yes, I know. I am going there next. I am going 
there next, but it has helped me improve my yields because I 
have had better information.
    Mr. Blair. Yes.
    Mr. Gibbs. Have I been able to predict, no. That is why I 
use a yield monitor to give me that actual value.
    Mr. Blair. Well, I guess that----
    Mr. Gibbs. I am going to the 50,000 question, the macro 
question. Is the technology moving towards where through the 
aerial or whatever where an entity could come and fly over a 
wide area of Iowa or whatever and kind of get a good handle in 
August, September, what that corn crop is going to be? Because 
USDA has crop production reports and we see what the markets 
use them and that speculation. So is the technology moving that 
way? Will that be actually feasibly possible?
    Mr. Blair. Yes, and with the different technologies out 
there, if you incorporate images and we create this database 
over time to understand what we are seeing in those images at 
the different resolutions, along with using weather data, there 
is a lot of very good electronic weather data out there as 
well, and when you incorporate those two together, we should be 
able to do some very, very good predictive predictions on 
yields for agriculture, for NASS reporting, on down the line.
    Mr. Gibbs. So that is really going to be a big public 
policy question, because that does give an entity the 
possibility to get real-time data ahead of anybody else, and it 
could affect the markets. It is just an interesting policy 
question that I don't think anybody has really discussed yet.
    Obviously, the technology is coming, since I started 
farming in the mid-1970s, the changes are just immense, and it 
is just incredible. It is like the technology builds on itself. 
Mr. Chairman, the way this technology goes, it is hard for the 
public policy to stay with it, but in this aspect, there are a 
lot of aspects that we have to adopt this technology or we will 
fall back globally, because I am sure that is another aspect of 
it. Where do you see it happening in like Brazil with their 
bean crop? What do you see happening with our competitors?
    Mr. Blair. Well, I have been fortunate to travel and visit 
a lot of these countries and talk with farmers and researchers. 
They are outpacing us on adoption of the technology because 
they have had to. Their economies and some of those factors 
that are forcing them to look at their margins, technology is 
allowing them to stay profitable.
    We have had it good as farmers in the United States and 
haven't really had to look at this until now when the commodity 
prices are dropping.
    Mr. Gibbs. Yes.
    Mr. Blair. Now we are turning to this technology, what can 
it do? It becomes more attractive, but those challenges are 
there. We need to push this forward to be more competitive with 
our competing countries.
    Mr. Gibbs. Thank you. Thanks for being here. Thank you, and 
I yield back.
    Mr. Neugebauer [presiding.] I thank the gentleman. Now the 
gentleman from California, Mr. LaMalfa, is recognized for 5 
minutes.
    Mr. LaMalfa. Thank you, Mr. Chairman.
    Mr. Blair, I appreciate you and the whole panel being here 
today. My question is pointed at you here first.
    I enjoyed some time on a D8 slide bar track layer during my 
formative years, cutting teeth on tractors as well, and the 
first pass over the fields is a nice one there. There is not 
much dust to deal with, but that second or third one, that is 
the tougher deal. So I relate to that totally.
    Let me touch on: I missed part of the testimony getting 
here, but the FAA with their rules released, what do you see 
are the latitude that you have, or is there more latitude 
needed with the FAA rules that are in place? We have FFA in 
here now. FAA rules that are in place, and do you see the 
latitude in order to do the work that needs to be done using 
the UAV technology?
    Mr. Blair. Thank you for that question. I mess up FAA, FFA 
a lot over the years. That is a tongue twister, so I am right 
there with you.
    Part 107 is a great start. It allows us to be more 
flexible. We no longer have to try for exemptions to operate 
commercially, but there are still areas that can be improved. 
One of them is being able to fly in restricted air space. 
Agriculture land doesn't know boundaries in the air. It goes 
right into restricted air space. In the last 2 years, we have 
been trying to fly for one of the larger wheat growing 
companies in the world to no avail. We have lost a generation's 
worth of data because of we could not fly inside there.
    What do I mean by that? Last year, we had the worst drought 
since 1977, a generation ago, and we couldn't collect that data 
on drought tolerant varieties. So those processes need to be 
more responsive for agriculture to----
    Mr. LaMalfa. Is the FAA rule the one that precludes the 
restricted air space, or is this more you are talking military 
bases that already have this in place?
    Mr. Blair. No, this is for restricted air space. You still 
have to file to fly inside these restricted areas, that 5 
mile----
    Mr. LaMalfa. Is it because of the FAA rule or because of 
military rule?
    Mr. Blair. FAA rule.
    Mr. LaMalfa. Okay, thank you.
    Mr. Blair. And some of the other things beyond line of 
sight is another issue that we need to address, and also make 
it easier for UAV operators to do aerial application.
    Right now, what the exemptions have done is try to shoehorn 
UAVs into existing regulations instead of creating their own, 
and Part 107 has not addressed Part 137, which is aerial 
application.
    Mr. LaMalfa. Okay. I wanted to touch on, you might call it 
privacy or a lot of things. When you use your own UAV on your 
own stuff or you have a contractor doing it for you at your 
request, do you see the FAA rule allowing for some type of 
prosecution or restriction of people basically poaching, like 
you might have an extremist group that wants to come look at 
your junk pile or see what you are doing with your water, or 
how you are managing your chemical containers? Flying over your 
place, screwing around, looking at that stuff. Do you see 
enough teeth in that to be able to keep people from snooping 
around your property?
    Mr. Blair. Well, right now I can drive down a road, take my 
iPhone out, and take a picture. There is nothing to stop me 
from doing that. I can be in a manned aircraft, hot air 
balloon, ultralight and take the same pictures and it is not an 
issue. But because of the negative connotation of the word 
drone, now all of a sudden using that iPhone has become an 
issue. But to address the example, there is a concern, 
especially in the agriculture industry of certain groups and 
sectors using this information maliciously. How do we stop 
that? The laws and regulations should not be around the UAV, 
but it is the use of the information.
    Mr. LaMalfa. Okay. Just for my own info, what is the lowest 
elevation someone can fly over your place in this scenario?
    Mr. Blair. With a UAV, you mean?
    Mr. LaMalfa. Yes.
    Mr. Blair. I do not believe they can, well, we cannot fly 
over someone's property without their permission, and will not, 
and I am not certain of that low altitude.
    Mr. LaMalfa. Is a frontier justice allowed if you find 
somebody flying over your place?
    Mr. Blair. In the words of one of my elected officials long 
ago, ``Shoot, shovel, and shut up'' so I am sure that will 
happen.
    You are going to see those instances. People are going to 
do some crazy things out there. In my state, people have shot 
at manned helicopters.
    Mr. LaMalfa. Okay. I will yield back. Thank you, Mr. 
Chairman.
    Mr. Neugebauer. I thank the gentleman, and now the 
gentleman from Georgia, Mr. Allen, is recognized for 5 minutes.
    Mr. Allen. Thank you, Mr. Chairman, and thank you for 
joining us today. I am going to kind of present this to all 
three of you and get your comments on it.
    Of course, I grew up on a farm and it was a little 
different back then, but I did have an experience in my 
district to plow a couple of rows or plant a couple of rows of 
peanuts, and we cranked up the computer and we planted 14" over 
from the year before, basically, and I didn't know exactly why 
we did that, and I also did not touch the steering wheel during 
this process. And I tell you what it made me think about is 
from a business experience now we use technology in the 
construction industry to accomplish a lot of the same things we 
are doing in agriculture as far as equipment and how to use 
that equipment efficiently. I will tell you one of the most 
difficult decisions that we had every year in the construction 
business was: how much do we invest in this? Because it always 
seemed like I said we are not going to spend any more on this, 
and then the next year, okay, we got to buy this. We have to 
have this. And then, of course, trying to justify the 
investment, and then what is that going to yield? What is that 
going to do to my bottom line, and what is that going to do to 
my longevity as far as this business is concerned?
    The third thing is the fact that this Subcommittee and this 
Committee is here to promote not only what you are doing, but 
agriculture, and what is it that we can do, and maybe you can 
think about this and file something like a report on just what 
we can do in the next, well, maybe this Congress to help you 
accomplish some of these goals that you have, and as I like to 
term it, get the Federal Government out of your way.
    So we will start right here.
    Mr. Faleide. Very good comment, sir. The industry has 
focused on hardware, like you were mentioning when is that 
device going to be antiquated? And that is a tangible object, 
and it is very easy to put value to that. What has been very 
difficult to put value to is the data itself. We are now 
seeing, and a good friend of mine who worked with us and 
started some of this, Gary Wagner out of Crookston, Minnesota, 
one of the pioneers of precision ag. In his presentations years 
ago, he said this data is so important, it is going to put 
value to my land. Some day this data is going to and with the 
land sale, because that history of that data, that device that 
captured it is long gone, no value. So now the intangible data 
now becomes tangible. And so it is very important that we start 
looking at information as the value point, not the device, not 
whether it came from what color a machine or anything.
    What your latter part of your question about what can we do 
as a government, the key is to make sure that the regulations 
allow that flow of data to not be restricted and to make sure 
that the infrastructure is in place that the data can flow, 
just like I said before about the fiber optic infrastructure. 
We have to have those kind of infrastructures to make data flow 
very easily and also very economically. So that if the 
government can help in that process, I think that is a good 
move for the future.
    Mr. Allen. Okay, very good.
    Mr. Crago. Yes, I agree completely. I think that the value 
of the data is not being fully recognized yet, and in my 
particular world with respect to the NAIP Program, the ability 
of everyone, farmers, government regulators, to have access to 
this open data is of paramount importance, and equally 
important is the maintenance of the legacy data and bringing it 
forward with current data. The value of being able to analyze 
the past with the present and predicting into the future in a 
lot of the things that my colleagues here have said is key, and 
having that data open and having it widely available is 
essential to this, to the process. Yes.
    Mr. Allen. Mr. Blair, you have 1 second. Sorry.
    Mr. Blair. Thank you. Real quick, risk management is the 
key. Using the technology to do crop insurance, we need to work 
on that, both for adjusting and on the severity of the claim 
and the area of the claim.
    Mr. Allen. Also lenders, right? I mean, as far as you know, 
you have crop investment and you have the lender, and then you 
have the crop insurance. But this information would be 
invaluable to lenders to be able to justify loaning the money, 
wouldn't it?
    Mr. Blair. Yes, it helps, how I view this, if we 
incorporate the technology, the grower is doing a better job at 
averting risk. The grower should actually get a premium 
reduction because he is making those weather and management 
decisions right there. If I am utilizing this technology on my 
farm, why do I have to pay the same premium as my neighbor, and 
I have less risk in the insurance industry?
    Beyond line of sight and then Internet infrastructure as 
well.
    Mr. Allen. Okay.
    Mr. Blair. Thank you.
    Mr. Allen. I yield back.
    Mr. Neugebauer. I thank the gentleman.
    This has been a very informative hearing, and a very 
important hearing, because one of the things that we know is 
there are a lot of challenges for agriculture today. Farmers 
are competing in a global marketplace that is maybe not always 
on a level playing field, dealing with weather and other 
factors. Obviously, we want to make sure that our producers 
have all the tools that they need to be as competitive as they 
can, and more importantly, to be economically viable. With the 
prices we are seeing right now, yield becomes a very important 
part of having a successful farming operation.
    I thank our witnesses today. One of the things that I 
always want to encourage our witnesses is that you come up here 
and give us almost an hour and a half of your time, and I know 
the preparation that you put in requires additional time. We 
appreciate that. I would hope that this is an ongoing dialogue, 
because we want to make sure that we are facilitating this 
technology and this tool and making it as an effective tool as 
we can for our producers.
    Before I adjourn the Committee, I would yield to the acting 
Ranking Member for any comments.
    Ms. Graham. I just want to echo what you just said, Mr. 
Chairman. Thank you very much.
    I have such a respect for folks who are willing to come up 
here and help us understand these issues in a greater way, and 
I know it takes a lot of time and so just thank you very much. 
It was very interesting, and we learned a lot, and we will take 
this information and you will help us do our jobs better, so it 
is very much appreciated.
    Mr. Neugebauer. Under the rules of the Committee, the 
record of today's hearing will remain open for 10 calendar days 
to receive additional material and supplemental written 
responses from the witnesses to any questions posed by a 
Member. This hearing of the Subcommittee on General Farm 
Commodities and Risk Management is adjourned.
    [Whereupon, at 11:15 a.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
Submitted Statement by Hon. Eric A. ``Rick'' Crawford, a Representative 
   in Congress from Arkansas; on Behalf of Andrew D. Moore, Executive
          Director, National Agricultural Aviation Association
June 30, 2016

  Hon. Eric A. ``Rick'' Crawford,
  Chairman, 
  Subcommittee on General Farm Commodities and Risk Management,
  House Committee on Agriculture,
  Washington, D.C.
Introduction
    [The] National Agricultural Aviation Association appreciates this 
opportunity to submit comments to the record on the recent hearing held 
June 23, 2016 by the House of Representatives' Committee on 
Agriculture, Subcommittee on General Farm Commodities and risk 
Management titled ``Big Data and Agriculture: Innovation in the Air.''
    Since 2005 the Federal Aviation Administration (FAA) has been 
working to develop a regulatory framework to integrate unmanned 
aircraft systems (UAS) into the National Airspace System (NAS). In 2012 
those efforts were doubled following the passage of the Federal 
Aviation Modernization and Reform Act (P.L. 112-95), which has 
culminated in the now-finalized small UAS rule, the first step in the 
``integration'' phase, as outlined by the FAA's UAS roadmap. Throughout 
this process the National Agricultural Aviation Association (NAAA) has 
been engaged in informing the FAA of our safety concerns with UAS and 
potential uses of UAS in the agricultural aviation industry.
    NAAA works to support the agricultural aviation industry which is 
made up of small businesses and pilots that use aircraft to aid farmers 
in producing a safe, affordable and abundant supply of food, fiber and 
biofuel, in addition to protecting forestry and controlling health-
threatening pests. In NAAA's communications with FAA's UAS Integration 
Office, NAAA has stressed that above all else UAS, particularly small 
UAS (sUAS), need to be identifiable, visible and safely operated to 
agricultural aviators (ag aviators) given agricultural aviation is one 
of the sectors of general aviation whose missions are performed as low 
as 10 above ground level and usually not above 500 when ferrying to a 
field to treat a crop or forest.
    NAAA urges the Subcommittee on General Farm Commodities and Risk 
Management to consider the great risk that accompanies UAS integration 
into the NAS should the FAA not increase safety precautions for UAS, 
and to support the safety provisions outlined below.
Importance of Aerial Application Industry
    NAAA consists of over 1,900 members, and represents the interests 
of small business owners and pilots licensed as commercial applicators 
that use aircraft to enhance the production of food, fiber, and 
biofuel; protect forestry; protect waterways, pastureland, and 
ranchland from invasive species; and control health-threatening pests, 
including mosquitos that spread West Nile virus and Zika virus. Almost 
20 percent of crop protection product applications to commercial 
farmland are made aerially. As a result, NAAA estimates that 71 million 
acres of cropland are treated via aerial application in the U.S. each 
year. This does not include pastureland, rangeland, forestry-land and 
other areas also treated via aerial application. Aerial applications 
are often the only, or most economical method for timely pesticide 
application. Additionally, aerial application is conducive to higher 
crop yields, as it is non-disruptive to the crop and causes no soil 
compaction, thus improving soil health and crop yields. This results in 
more food and fiber being produced using less land, allowing the land 
to be repurposed for other uses, including habitat preservation for 
endangered and/or threatened plant, animal, and aquatic species 
beneficial to the environment, and for preserving vegetative ecosystems 
important to the sequestration of carbon and water purifying wetlands.
    Because of the importance of the aerial application industry, it is 
vital a safe, low-level airspace exists to ensure these pilots can 
continue to do their jobs safely. Ensuring safe low-level airspace 
includes minimizing obstructions which are difficult to be seen and 
identified by the pilots. In addition to aerial application operations, 
aircraft users of low-level airspace include: Emergency Medical 
Services (EMS), air tanker firefighting aircraft and their lead 
aircraft; power line and pipeline patrol aircraft; power line 
maintenance helicopters; fish and wildlife service aircraft; animal 
control aircraft (USDA-APHIS-ADC); military helicopter and fixed-wing 
operations; seismic operations (usually helicopters); livestock roundup 
(ranching or animal relocation); aircraft GIS mapping of cropland for 
noxious weed populations and the like; and others.
Safety Recommendations
    NAAA understands that UAS will be used for crop sensing as another 
tool to make precision applications and scout for livestock, among 
other uses, joining satellite and manned aircraft that also perform 
these services.
    A January NAAA survey found that about three percent of NAAA 
members have begun to use UAS at their operations, and nearly 15 
percent are looking into using UAS. Moreover, the world's largest 
agricultural aircraft manufacturer and NAAA member--Air Tractor--has 
purchased a UAS company and will be looking into their use to aide 
aerial applicators to perform crop-sensing and aerial imaging services. 
But NAAA believes it's vitally important to both the manned and 
unmanned aviation industries to integrate UAS safely into the NAS to 
prevent tragic loss of life and prevent backlash against UAS from the 
public.
    Birds provide an apt example of what could happen if a drone hits a 
manned aircraft. According to a joint report by the FAA and the U.S. 
Department of Agriculture's Animal and Plant Health Inspection Service 
(USDA-APHIS), between 1990 and 2012 over 131,000 wildlife strikes 
occurred with civil aircraft, 97 percent of which were the result of 
collisions with birds, with 25 resulting in fatalities.
    It doesn't take a very large bird to do significant damage to an 
airplane. As the photo here indicates, a turkey vulture, which has an 
average weight range of between 1.8 to 5.1 pounds can break through an 
ag aircraft windshield. Even smaller birds such as a mallard duck have 
broken through ag aircraft windshield and that species of waterfowl 
only weighs 1.6-3.5 pounds.\1\ NAAA especially fears what will happen 
if a sUAS weighing as much as 55 pounds traveling at 100 mph--both 
allowed under FAA's finalized UAS operations rule, Part 107--will do to 
an agricultural aircraft when much smaller birds are known to do 
significant damage. Birds consist of hollow bones, feathers, sinew and 
muscle, whereas UAS are made of more solid materials, particularly the 
batteries.
---------------------------------------------------------------------------
    \1\ ``Fowl Play: Aviation Bird Strikes Could be a Harbinger of 
Things to Come Once UAVs Are Approved for Agriculture,'' Agricultural 
Aviation. May-June [2014]. Pages 12-15. (see Appendix). Editor's note: 
the article referred to has been retained in Committee file. It can 
also be found at: http://www.agaviationmagazine.org/
agriculturalaviation/20140506?pg=14#pg14.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Above: Luckily, operator Steve Fletcher only sustained minor 
        injuries when a turkey vulture blew out the cockpit window of 
---------------------------------------------------------------------------
        his Air Tractor 802 while he was flying.

    NAAA is concerned that the widespread use of UAS as projected in 
agricultural areas without devices that allow ag aviators to track and 
see these aircraft will result in incidents similar to bird strikes, 
which can ultimately prove fatal. Not only could this result in harm 
and death for agricultural pilots and chemical spills resulting in 
environmental endangerment, but it could also result in a black eye for 
the promising UAS industry.
    The agricultural aviation industry places a great amount of 
importance on the ability to see and avoid obstructions and other 
aircraft in the airspace in which they operate. While this principal is 
the backbone of safety for our industry and all air traffic operating 
under visual flight rules (VFR), it can only be utilized effectively 
when all aircraft do their part in sensing and avoiding other aircraft 
and, hence, avoiding collisions.
    The necessary technology to allow UAS to ``sense and avoid'' other 
aircraft has yet to be proven commercially viable. NAAA believes until 
this technology is developed, UAS operators in agricultural areas 
should be required to be equipped with strobe lights on the UAS itself, 
and, to assist with identification of UAS operating areas, on the UAS 
operator's ground vehicle. Automatic Dependent Surveillance-Broadcast 
(ADS-B) Out technology is a key component of the FAA's Next Generation 
Air Transport System (NextGen) that allows the identification of 
aircraft based on transponder and GPS signals, and allows nearby 
aircraft with the proper reading equipment to identify their exact 
location. Proven, ADS-B-like systems designed for UAS are currently on 
the market and should also be a requirement for UAS in agricultural 
areas, allowing low-level manned aircraft to identify them. These units 
weigh as little as 300 grams and cost as little as $1,200. An ag 
aviator equipped with ADS-B In technology in his cockpit would be 
informed of a UAS in his vicinity, then he would know to look for an 
aircraft, such as a UAS, that should also be equipped with a strobe, 
outside of the cockpit. This would then enable him the necessary 
information to then sense and avoid the object.
    NAAA also believes the FAA should require that UAS in agricultural 
areas be painted in colors which make them readily distinguishable from 
the background. This, coupled with an ADS-B-like system and visible 
lighting, will greatly improve our pilots' ability to protect 
themselves from potentially deadly UAVs.
    NAAA was pleased to see Part 107 will continue to require UAS to 
give way to manned aircraft, and believe this practice should continue 
to ensure human safety. NAAA is concerned, however, that FAA has set a 
low-bar for entry for UAS operators by not requiring that they 
demonstrate the ability to safely operate a UAS, or that they be 
certified pilots well versed in the safe function of our national air 
space. Moreover, NAAA believes that UAS should be certified to be 
safely manufactured and maintained like agricultural aircraft and other 
manned aircraft must be.
Conclusion
    NAAA's goal is to ensure a continued safe operating environment for 
aerial applicators and UAS users throughout the UAS integration 
process. Given that crop sensing and aerial photography are among the 
top growth areas for UAS, we believe it is vital that the future fleet 
of unmanned aircraft are marked and piloted by responsible, 
knowledgeable professionals.
    NAAA urges the Subcommittee to support future UAS safety efforts to 
prevent future accidents that would setback the UAS industry for years 
to come.
    Thank you, and please feel free to contact me if you have any 
questions.
            Sincerely,
            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            
Andrew D. Moore.
Executive Director.
                                 ______
                                 
    Submitted Statement by Christopher C. Dombrowski, Ph.D., Chief 
          Technology Officer, TerrAvion, Inc., San Leandro, CA
Innovation in Aerial Imagery and How It Can Be Useful to Farmers
    TerrAvion helps farms take a high tech approach to improving yield 
and revenue, with the first cloud-based, next day aerial imaging and 
data analytics service for agriculture. From small family farms, to the 
largest agribusinesses, TerrAvion provides producers with images and 
data that accurately detail the conditions of every acre, allowing 
farmers to identify problems before they can impact yield. As we move 
into the future, with our ever growing population, we will have to rely 
on precision agriculture, and just plain farm smarter.
    Our company began with our founder and CEO Robert Morris, who 
served in U.S. Army as the Tactical Unmanned Aerial (TUAV) Platoon 
Leader in Afghanistan. The platoon was the first of its kind in 
Afghanistan, and helped uncover critical intelligence that altered the 
course of a number of strategically important operations. When he 
returned to civilian life, in 2012, a farmer friend said to him, ``You 
ran a drone platoon in the army. I need to see all of my crops every 
week. Can I use drones for that?'' The friend was not able to survey 
the entirety of his fields in the time he had. It was the same problem 
that the army had solved with drones and stealth aircraft.
    Robert explored the market and quickly ascertained that, as useful 
as drones can be, they would not provide a scalable, and affordable, 
service to the people that needed it most, the farmers. The other 
option of plane-based imagery was available, but they charged $6-$15 
per acre, per pass (fly by), and the imagery was not sent for weeks! 
Not only was the cost prohibitive, the delay in receiving the imagery 
caused the data captured to be too out of date for anything but a few, 
limited uses.
    Due to his time in the military, Robert know that it was possible 
to deliver imagery much more quickly. Our imagery is available next 
day, and we are working on cutting that time down. He ultimately 
decided to partner with an expert in computer imagery and equipped 
light aircraft with the hardware necessary to collect large amounts of 
data and deliver it to TerrAvion's servers in real time, where it could 
be packaged and sent to individual clients. For far less than the cost 
both in time, and capital of procuring a drone, or drone service, a 
producer can subscribe to TerrAvion's cloud-based service and not have 
to worry about the extra management. Electric drone collection uses 20 
times more labor per acre than TerrAvion. This model simply doesn't 
work for growers who are trying to control costs or for a populous 
expected to reach nearly 10(9) billion people by 2050. Last year 
TerrAvion collected more acres per week than all electric drones 
combined did in a year. With TerrAvion, the farmer can focus on their 
farm.
    TerrAvion's core focus is to provide growers with high quality 
aerial imagery that is current and actionable. For most of our 
customers this means imagery delivered once per week within 24 hours of 
capture. By cutting down the time it takes between gathering the data, 
and putting it in the farmer's hands, we allow them to act on the 
imagery in a meaningful way. With our subscription based plan, we can 
take more images and avoid weather and time constraints that affect 
other services, namely drones and satellites. The high frequency of 
flights gives the grower the ability to rapidly detect issues and 
target problem areas in the fields, as well as monitor the efficacy of 
different fertilizers, pesticides, seeds, etc. While about 90% of our 
customers sign up for annual subscriptions we are also provide single 
and multishot services for a variety of needs and purposes. As we 
continue to grow we will apply our services to the crop insurance 
adjustment sector. In the past, we have provided our customers with 
timely imagery of their crops after disasters such as wildfires or 
flooding. This information allowed them to document damages and 
calculate the acreage affected, a useful tool for farmers and insurance 
companies alike.
    Our current offerings can be summed up by the following list:

  <bullet> Visible imagery:

    <ctr-circle> Provides overview of entire operation in one image.

    <ctr-circle> Directly comparable to what would be seen on the 
            ground.

    <ctr-circle> Directed scouting, where to focus manpower, where you 
            don't need to check.

  <bullet> IR:

    <ctr-circle> Color Infrared, a traditional imaging technique allows 
            for rapid detection and assessment of vegetation.

    <ctr-circle> NDVI (Normalized Difference Vegetation Index) allows 
            for the assessment of plant health and vitality.

  <bullet> Thermal:

    <ctr-circle> Water management, leaks and plant growth associated 
            with leaks have a strong signature in the Thermal Band.

    <ctr-circle> Stressed plants can be distinguished from non-stressed 
            plants easily in the Thermal Band.

  <bullet> Analytics:

    <ctr-circle> Through image processing useful information can be 
            extracted into tabular form. Vegetation mean, planted 
            acreage, quality variation, et cetera.

    <ctr-circle> This tabular data can easily be compared, field to 
            field, region to region, or track a crop through time.

  <bullet> Big Data:

    <ctr-circle> Our data can be combined with other GIS ready data 
            such as weather, soil chemistry, irrigation data, treatment 
            regimens, et cetera.

    <ctr-circle> Analysis and planning can be done combining all 
            available data.

    These offerings lead me to point another advantage of the precision 
agriculture movement, and of TerrAvion in particular. We manage all of 
the technological burden. We collect and process the data and make it 
deliverable through a standard web browser or mobile application. All 
we require from a customer is the location and geometry of the area 
they need flown and when. Our API is fully supported and has already 
been integrated with several of the largest agricultural retailers in 
the U.S., allowing our customers to quickly, and easily, access their 
imagery in existing management systems.
    TerrAvion provides full documentation and training programs, free 
of charge, to teach growers who are not used to using aerial imagery so 
that they may manage their crops more efficiently. This support 
provides a tremendous value to the grower and reduces a primary barrier 
to entry into the usage of aerial photography. While we provide some 
analytics, and that amount is growing, TerrAvion knows that technology 
is not going to replace farmers, or their personal knowledge. We seek 
to provide them the support they need to move forward in a rapidly 
changing world. In our minds, we work for the growers.
    Because of all of the reasons listed above, growers can farm 
smarter. Aerial imagery allows for farmers to target problems areas, 
drastically reducing labor costs as well as other inputs. The extra 
time provides farmers the ability to improve the entirety of their 
field, increasing yield, while decreasing their investments. With our 
service a grower can view the entirety of their crops in one place and 
have confidence that the choices they are making are accomplishing 
results.
    As recently as 5 years ago, what we do would not have been possible 
at a large scale. The speed of image processing and cloud computing has 
made this service accessible to every grower. Sensors are constantly 
evolving, giving farmers more and more insight into the plants they see 
every day. With our plane-based systems we have the ability to add more 
sensors to our collection at a minuscule increase in cost. And now, we 
can do this at a resolution that is competitive, or better than drones 
and satellites at lower cost that is better or competitive.

    What makes TerrAvion different/unique among aerial imagery options? 
Among other mapping and technology options?

  <bullet> High revisit and up to date images.

  <bullet> Rapid delivery of imagery. We strive for 24 hour turnaround 
        from capture to delivery to the customer.

  <bullet> Subscription-based service. Cost is for a season of up to 
        date images, not per pass. 90% of our customers use annual 
        subscription, about 10% do single or up to three passes.

  <bullet> Cost and scalability are unbeatable.

  <bullet> Easy integration with other management systems.

  <bullet> Our company is built on serving the needs of farmers/the 
        market and not on technology/silicon valley hype, that being 
        said we are always innovating.

  <bullet> We have the ability to survey large areas for insurance 
        adjusting after natural disasters

    What new, innovative practices is TerrAvion employing?

  <bullet> Distributed collection brings collection costs down.

  <bullet> Cloud-based storage, processing, and delivery reduces 
        infrastructure overhead bringing costs down.

  <bullet> Distributed labor force allows for 24 hour coverage and 
        overnight delivery.

  <bullet> Image processing and analytics as a service.

    How is this different from something farmers could get 5 years ago? 
10 years ago? 20 years ago?

  <bullet> Speed of collection and rate of delivery.

  <bullet> Cloud computing has allowed for the processing and delivery 
        of data on a scale what would have been cost prohibitive even 5 
        years ago.

  <bullet> Sensor size has dramatically increased while costs have 
        decreased in the past 20 years.

  <bullet> Competitive or better resolutions than satellite and drones.

    What challenges for farmers can be mitigated by using TerrAvion?

  <bullet> Directed scouting, documentation, and overall labor 
        reduction.

  <bullet> Crop management: problem detection (pest, disease, water, 
        etc.), yield prediction, side by side trial comparisons, 
        informed decision making.

  <bullet> Big data analytics.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
